<html>
<title> - RELIGIOUS FREEDOM, DEMOCRACY, HUMAN RIGHTS IN ASIA: STATUS OF IMPLEMENTATION OF THE TIBETAN POLICY ACT, BLOCK BURMESE JADE ACT, AND NORTH KOREAN HUMAN RIGHTS ACT</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
          RELIGIOUS FREEDOM, DEMOCRACY, HUMAN RIGHTS IN ASIA:
          STATUS OF IMPLEMENTATION OF THE TIBETAN POLICY ACT,
       BLOCK BURMESE JADE ACT, AND NORTH KOREAN HUMAN RIGHTS ACT

=======================================================================



                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 2, 2011

                               __________

                           Serial No. 112-40

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/





                  U.S. GOVERNMENT PRINTING OFFICE
66-780                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                                 ______
                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
VACANT
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Robert King, Ambassador, Special Envoy for North 
  Korean Human Rights Issues.....................................     9
The Honorable Joseph Y. Yun, Deputy Assistant Secretary of State, 
  East Asian and Pacific Affairs.................................    17
The Honorable Daniel B. Baer, Deputy Assistant Secretary of 
  State, Democracy, Human Rights and Labor.......................    28
Mr. Richard Gere, chairman of the board of directors, 
  International Campaign for Tibet...............................    51
Mr. Chuck Downs, executive director, Committee for Human Rights 
  in North Korea.................................................    61
Mr. Aung Din, executive director & co-founder, U.S. Campaign for 
  Burma..........................................................    70
Ms. Sophie Richardson, Asia advocacy director, Human Rights Watch    78

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Ileana Ros-Lehtinen, a Representative in Congress 
  from the State of Florida, and chairman, Committee on Foreign 
  Affairs: Prepared statement....................................     4
The Honorable Robert King: Prepared statement....................    12
The Honorable Joseph Y. Yun: Prepared statement..................    20
The Honorable Daniel B. Baer: Prepared statement.................    31
Mr. Richard Gere: Prepared statement.............................    53
Mr. Chuck Downs: Prepared statement..............................    63
Mr. Aung Din: Prepared statement.................................    73
Ms. Sophie Richardson: Prepared statement........................    80

                                APPENDIX

Hearing notice...................................................   100
Hearing minutes..................................................   101
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........   103
Questions submitted for the record to the Honorable Robert King 
  by the Honorable Ileana Ros-Lehtinen...........................   105
Questions submitted for the record to the Honorable Robert King 
  by the Honorable Donald A. Manzullo, a Representative in 
  Congress from the State of Illinois............................   106


     RELIGIOUS FREEDOM, DEMOCRACY, HUMAN RIGHTS IN ASIA: STATUS OF 
 IMPLEMENTATION OF THE TIBETAN POLICY ACT, BLOCK BURMESE JADE ACT, AND 
                     NORTH KOREAN HUMAN RIGHTS ACT

                              ----------                              


                         THURSDAY, JUNE 2, 2011

                  House of Representatives,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 o'clock a.m., 
in room 2172 Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the committee) presiding.
    Chairman Ros-Lehtinen. For opening statements, I will 
recognize the chairman and ranking member of the Subcommittee 
on Africa, Global Health, and Human Rights Subcommittee for a 
3-minute speech. We will then hear from our witnesses, and I 
would ask that you summarize your prepared statements in 5 
minutes each before we commence with the question and answers 
from members under the 5-minute rule.
    Without objection, the witnesses' prepared statements will 
be made a part of the record, and members may have 5 days to 
insert statements, questions and additional material for the 
record, subject to the length limitations in the rules.
    The chair now recognizes herself for 7 minutes.
    Today we are here to discuss the dark clouds of oppression 
that hang ever heavier over the peoples of Tibet, Burma, and 
North Korea.
    I was proud to be a co-sponsor with our late chairman and 
strong human rights advocate, Tom Lantos, of the Tibetan Policy 
Act, and an original co-sponsor of the Block Burmese JADE Act. 
I was also privileged to author the reauthorization of the 
North Korean Human Rights Act, which was enacted into law in 
2008.
    Congress has long sought to address the suffering of the 
people of Tibet, Burma, and North Korea through legislation to 
ease, to some degree, their pain. Let us now examine the 
executive branch's track record in implementing these Acts.
    There is a common thread that leads to a massive spider web 
of human rights and religious freedom violations. At the core 
sits China. As we commemorate the 22nd anniversary of the 
Tiananmen Square massacre on Saturday, we must never forget 
those who fell as the tanks crushed the democratic aspirations 
of the Chinese people.
    We must never forget that the heirs to this shameful 
Tiananmen legacy and their comrades in blood lust continue to 
subjugate by the sword not only the Chinese people but also the 
people of Tibet, Burma and North Korea. Whatever the motive, a 
rising China is at the center of this trio of tyranny which 
casts a dark shadow over the otherwise optimistic projections 
for Asia's future.
    Turning to the three laws that we are examining today, 
since 2002 when the Tibetan Policy Act first called for the 
establishment of a U.S. official presence in the capital of 
Tibet, there has been absolutely zero diplomatic progress. The 
State Department must make it perfectly clear to China's 
diplomats that there will be no more Chinese consulates opened 
in the U.S., not in Atlanta, not in Boston, not in Honolulu, 
until the stars and stripes are flying proudly over a U.S. 
diplomatic facility in Tibet.
    It is also regrettable that the Special Coordinator for 
Tibetan Issues, a position created by the Tibetan Policy Act, 
could not appear as a witness today to address the oversight 
concerns of Congress with regard to this act.
    I now would like to turn to the Block Burmese JADE Act. I 
understand that the administration has finally put forward the 
name of Derek Mitchell to serve as the Special Representative 
and Policy Coordinator for Burma, a position created by the 
act, and that he is awaiting Senate confirmation.
    I would like our administration witnesses to explain why it 
took almost 2\1/2\ years to name this official to a key 
position legislatively mandated by Congress. I would also ask 
the administration witnesses to elaborate on the 
administration's approach to the Burmese junta and if the 
administration remains committed to pursuing what it calls a 
policy of pragmatic engagement, a policy I strongly disagree 
with.
    Another key component of the Burma law was the prohibition 
on the import of Burmese gemstones, rubies and jade. A 
Government Accountability Office GAO report on September 30, 
2009, stated, ``U.S. agencies have taken some steps, but have 
not shown that they are effectively restricting imports of 
Burmese origin rubies, jade and related jewelry, while allowing 
imports of non-Burmese origin goods.''
    If we could work so effectively with the African countries 
and our allies to ensure that we could block the importation of 
blood diamonds during the conflicts in Africa, one has to 
question why it would seem that we have not made the same 
efforts with blocking imports of Burmese rubies.
    Finally, let me address the North Korean Human Rights Act. 
It is especially appropriate that the Special Envoy for North 
Korean Human Rights Issues, a position created by the act, is 
here today. We welcome Dr. Bob King, a long-time trusted 
advisor to Chairman Lantos and former Democratic Chief of Staff 
for this committee.
    The North Korean Human Rights Act specifically clarified 
any confusion on the eligibility of North Koreans for refugee 
or asylum consideration in the United States. While the vast 
majority of North Korean refugees will continue to be resettled 
in South Korea for historic, linguistic, and cultural reasons, 
the Act spells out that the U.S. doors remain open to North 
Koreans fleeing savage oppression.
    Only about 120 North Korean refugees have made it to the 
United States in the 7 years since enactment of this 
legislation. That raises questions about the State Department's 
purposefulness.
    Another issue addressed in the act is food assistance to 
North Korea. The act is clear in stipulating that ``such 
assistance should also be provided and monitored so as to 
minimize the possibility that such assistance could be diverted 
for military or political use.''
    I share the concerns of my Senate colleagues in their May 
20 letter to Secretary Clinton that any food aid provided would 
most likely be used for propaganda purposes to mark the 
hundredth anniversary of the North Korean founder. It should be 
clear that there should be strong opposition in the Congress to 
any attempt to provide food assistance paid for by the American 
taxpayer for more bread and circuses in Pyongyang.
    I now turn to the distinguished ranking member, my friend 
Mr. Berman, for his opening remarks.
    [The prepared statement of Chairman Ros-Lehtinen follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Berman. Well, thank you, madam chairman, and thank you 
for convening this very timely hearing focused on the human 
rights situation in Tibet, Burma, and North Korea.
    Nearly 84 million Tibetans, Burmese, and North Koreans 
cannot speak freely, worship how they choose, or elect their 
own government leaders. There are few places in the world where 
people have endured as long under the yoke of oppression with 
little hope of a better life. In Tibet, the uniqueness of 
Tibetan culture is being slowly extinguished, strangled by Han, 
migration, and Chinese policies that restrict religion 
association and movement.
    As the State Department notes in its recent human rights 
report, government authorities continue to commit serious human 
rights abuses, including extra judicial killings, torture, 
arbitrary arrests, extra judicial detention, and house arrest. 
Hundreds of Tibetans, especially monks, remain incarcerated for 
their role in the 2008 protests.
    Under the Dalai Lama, who will be in Washington this 
summer, Tibetans have sought to overcome adversity and 
hardship. Exiled communities have been established in India, 
the United States, Europe, and elsewhere to preserve Tibetan 
cultural identity, language, and religion. It is a tribute to 
the Dalai Lama's moral leadership that the diaspora has 
remained strong, but he knows, and we know, that in the future 
this strength could be threatened with his eventual passing.
    China has long feared and sought to undermine the 
transition to the Panchen Lama, the second highest lama in 
Tibetan Buddhism. He has been held captive for 16 years, since 
he was 6 years old, and during that time has not been seen by 
the outside world. It is a sad commentary that Beijing felt it 
necessary to imprison a child for so long.
    In Burma, the leaders of the country fear their own people, 
and thousands have been imprisoned. Last November Burma held 
elections for the first time in 20 years. Regrettably, what 
should have been an important milestone for the people of that 
impoverished country turned out to be more of the same. The 
ruling military dictatorship fixed the process to ensure its 
continued dominance, and the vote was marred by widespread 
fraud and intimidation.
    I am pleased the Obama administration has put forward a 
nomination for the Special Representative and Policy 
Coordinator for Burma, as required by the Tom Lantos Block 
Burmese JADE Act of 2008. I hope the Senate will confirm him 
quickly. It is important that we redouble our efforts to 
pressure the government to end its repression. The economic and 
diplomatic sanctions the United States has imposed since the 
1990s have too often been undermined by Burma's neighbors.
    North Korea's status is unique, a nation ruled absolutely 
by one family, in which millions live in desperate conditions, 
impoverished, often starving, living in constant fear of 
arbitrary arrest and possible torture or execution. According 
to Human Rights Watch, hundreds of thousands live in prison 
camps, with some children growing to maturity, if they are 
lucky, while imprisoned.
    In 2004, Congress passed the North Korean Human Rights Act 
with overwhelming bipartisan support to focus U.S. attention on 
the plight of the North Korean people. The Act provided new 
resources to assist North Korean refugees, supported democracy 
and human rights programs, and improved access to information 
through radio broadcasts and other activities.
    It also required the President to appoint a Special Envoy 
on North Korean Human Rights, which is now filled, I am happy 
to say, by Ambassador King who, as the Democratic staff 
director of this committee, worked on the passage of this 
milestone legislation. We are fortunate to have Ambassador King 
with us today, and eager to hear about his recent trip to North 
Korea. We also welcome the other distinguished witnesses, and 
look forward to hearing their suggestions as to what we should 
be doing to help more effectively human rights in Asia. Thank 
you, Madam Chairman.
    Chairman Ros-Lehtinen. Thank you, Mr. Berman. Pleased to 
yield 3 minutes to Chairman Smith, chairman of the Subcommittee 
on Africa, Global Health, and Human Rights.
    Mr. Smith. Thank you very much. Thank you, Madam Chairman. 
As you know, I had the privilege of working with Congressman 
Frank Wolf on the passage of the International Religious 
Freedom Act in 1998, which includes several important tools for 
ensuring religious freedom and that religious freedom is an 
essential component of U.S. foreign policy.
    I would note my subcommittee will hold a hearing tomorrow 
morning to examine IRFA and proposed amendments to strengthen 
our diplomatic efforts in this critical human rights area.
    In the context of this hearing, I would note that the 
People's Republic of China remains a country of particular 
concern, so designated by the act and by the administration in 
official recognition that the government engages in systematic, 
ongoing, and egregious violations of religious freedom.
    I personally know scores of religious leaders who have 
been, and still are, suffering religious persecution in China. 
One of those individuals is Bishop Su of Guangdong Province, 
who I met back in 1994. He was rearrested in 1997. Prior to 
that arrest, he had been jailed five times, spent a total of 20 
years in jail, and had been beaten so savagely that he suffered 
extensive loss of hearing.
    I would also point out that Gao Zhisheng, a great man who 
several of us nominated for the Nobel Peace prize along with 
Liu Xiaobo--here is a man who disappeared, and he did provide, 
when he was out briefly, a detailed account of the torture that 
he had suffered, just like Tibetan Buddhists, just like the 
Uighurs, where cattle prods were put into his mouth and on his 
genitals, and was almost killed as a result of that torture.
    This is how the Chinese Government mistreats. The cruelty 
that is meted out against those who try to practice their 
faith, be they Falun Gong, Tibetan Buddhists, Christians as 
part of the underground church, or other people who are just 
trying to practice their faith.
    Vietnam, of course, remains an egregious violator of human 
rights and already designated CPC. We welcome Dr. Bob King, our 
Ambassador, and I look forward to hearing his insights and 
recommendation as to how we might better implement the North 
Korean Human Rights Act.
    It seems to me that the time has come not just to promote 
aggressively our efforts to mitigate the nuclear threat on the 
Korean Peninsula in North Korea, but also to engage as robustly 
on the human rights violations committed by the dear leader in 
North Korea. So I look forward to their testimony. Thank you 
for this hearing.
    Chairman Ros-Lehtinen. Thank you so much, Chairman Smith. 
Mr. Payne is not here. So we will recognize Ms. Wilson for 1 
minute for any opening remarks she would like to make.
    Ms. Wilson of Florida. I thank Chairman Ros-Lehtinen and 
Ranking Member Berman for holding this hearing today, and thank 
you for this opportunity.
    Human rights, democracy, and freedom have eluded the people 
of Tibet, Burma, and North Korea for decades. In Tibet, the 
Chinese Government continues with policies that undermine the 
proud culture and religion of the people. Although elections 
were held and the theoretical transition to a civilian 
government has happened, human rights is a foreign word in 
Burma, and in North Korea, the most hidden country in the 
world, the majority of the people face daily power outages, no 
food, and no human rights.
    I am interested in hearing how effective have American tax 
dollars been in helping the people of Tibet with projects 
supported by the United States. I need to know if there has 
been any significant improvement for the human rights in Burma, 
and if any sanctions need to be removed or renewed.
    I hope that we have a better understanding of the current 
security situation along the North Korean border for North 
Koreans trying to cross to and from China. Most importantly, we 
have to do what we can to ensure that all human beings have the 
basic human rights that we all deserve.
    The religious ethic that we are supposed to help the least 
of our brothers and sisters seems to be lost in the countries 
of Tibet, Burma, and North Korea. It is the job of this 
committee to help them find it.
    Again, I thank the chair for this time.
    Chairman Ros-Lehtinen. Thank you so much, Ms. Wilson. The 
chair is now pleased to welcome our witnesses.
    Ambassador Robert King became the Special Envoy for North 
Korean Human Rights Issues on November 2009 following his 
confirmation by the United States Senate. Bob is an old friend 
of the committee due to his quarter-century of work on Capitol 
Hill--you are an old guy--serving for 2 years as staff director 
of this committee.
    Bob's legislative work, including in support of the North 
Korean Human Rights Act, took root as he helped shape 
Congressman Tom Lantos' excellent human rights agenda as his 
chief of staff for 24 years. Ambassador King holds a PhD in 
international relations from the Fletcher School of Law and 
Diplomacy, and he has just recently returned from a fact 
finding mission to North Korea. Welcome back, Bob. Thank you.
    We will also then hear from Joseph Yun, who was appointed 
Deputy Assistant Secretary of State for East Asian and Pacific 
Affairs in August 2010. Mr. Hun's portfolio is focused on 
Southeast Asian issues. Since last summer, he has been closely 
involved in the implementation of the administration's 
pragmatic engagement policy directed toward the junta in Burma, 
and he, in fact, just returned from a trip to that area.
    His overseas Foreign Service postings include South Korea, 
Thailand, France, Indonesia, and Hong Kong. He holds degrees 
from the London School of Economics and the University of 
Wales. We look forward to your testimony, Mr. Yun.
    Finally, we have Deputy Assistant Secretary of State for 
Democracy, Human Rights and Labor, Mr. Daniel Baer, who will 
address human rights and religious freedom issues in Tibet. 
Prior to assuming his position at the State Department in 
November 2009, Mr. Baer was an assistant professor in 
Georgetown University's McDonough School of Business where he 
taught business ethics. Daniel holds a Bachelor's degree from 
Harvard and a Doctoral degree from the University of Oxford. He 
could not get into my college, Miami Dade community College. So 
you had to go to Harvard and Oxford. So welcome back, Mr. Baer.
    I would like to kindly remind our witnesses to keep your 
oral testimony to no more than 5 minutes. You know this drill 
well, Dr. King. Oh, Mr. Berman is recognized.
    Mr. Berman. I thank you very much, Madam Chairman. Just as 
so often happens around here, the Judiciary Committee is 
marking up four bills at the same time as this is going on. So 
if a couple of us--I know Mr. Deutch is also on both 
committees--are running in and out, it is not because you said 
something that offended us or bored us. It is because we had to 
cast a vote over there. Thank you.
    Chairman Ros-Lehtinen. Thank you so much. Dr. King is 
recognized. Mr. Ambassador.

  STATEMENT OF THE HONORABLE ROBERT KING, AMBASSADOR, SPECIAL 
           ENVOY FOR NORTH KOREAN HUMAN RIGHTS ISSUES

    Ambassador King. Madam Chairman, I won't mention your 
comment about my age, but I do want to thank you for my job. If 
it hadn't been for you and Mr. Berman, I wouldn't be in this 
position. So I appreciate that. Thanks also for the invitation 
to testify today.
    Your letter raised five questions with regard to North 
Korea, and I would like to talk a little bit about those. 
First, the implementation of the North Korean Human Rights Act.
    A couple of weeks ago, I sent to you and to Mr. Berman 
copies of a report, the annual report, of the Special Envoy on 
the North Korea human rights dealing with the implementation of 
the North Korean Human Rights Act. It is unclassified. It is 
available. If there are any questions, if you want additional 
information than what I have done there, I would be happy to do 
that.
    The one thing I do want to say in terms of implementation 
of the North Korean Human Rights Act: One of the things the act 
specified is that the Special Envoy should participate in 
formulation and implementation of activities carried out under 
the act.
    My office and the State Department is in the same suite of 
offices that Ambassador Steven Bosworth and Ambassador Sung Kim 
have, and we speak every day on issues. We have meetings 
together. We confer. So I think there is not a problem at all 
in terms of my being a participant in what happens in terms of 
State Department policy on North Korea.
    The second issue that you raised in your invitation was a 
question about programs to resettle North Korean refugees in 
the United States and to assist North Korean refugees in China. 
You mentioned the problems of North Koreans choosing to settle 
in South Korea rather than the United States.
    Over the lat decade there have been some 21,000 North 
Koreans who have settled primarily, as I said, in South Korea. 
Because of the unique situation and problems for these 
refugees, Assistant Secretary of State for East Asia Kurt 
Campbell has discussed the concerns with his particular group, 
with all of our ambassadors in East Asia. The Bureau on 
Population Refugees and Migration has had special sessions to 
train and instruct staff that deal with those issues.
    So I think we have made a conscious effort to try to deal 
with the problem of these refugees. We work very closely with 
our ally, South Korea, in dealing with these refugees, and work 
to allow them to get out as quickly as possible when that is 
the case.
    You asked about the issues of what we are able to do in 
China to assist these refugees. If you would like to go into 
detail in terms of that issue, I would be happy to come up, but 
I would prefer to do it in a classified session because of the 
sensitivity of some of the issues involved there.
    The third issue you mentioned was broadcasting information 
to North Korea. That is a particularly important element in 
terms of opening North Korea to outside news and information.
    Under the Broadcasting Board of Governors, we provide 
broadcasting assistance for Voice of America and for Radio Free 
Asia to broadcast. Under funding that is provided to the State 
Department, we have provided funds for so called defector 
radio, radio operations that are primarily staffed by North 
Korean refugees, primarily in South Korea, and those are also 
broadcast. So we have continued to put major efforts into the 
broadcasting area.
    On the human rights situation in North Korea, the State 
Department puts out a series of reports annually on these kinds 
of issues. One of them is the country reports on human rights 
conditions. The last report calls the human rights conditions 
in North Korea deplorable. Mr. Smith mentioned the 
International Religious Freedom report, and mentioned that 
North Korea is a country of particular concern, then identifies 
a particular problem in terms of religious liberty.
    The Trafficking in Persons report identifies North Korea as 
a tier three country, a country whose government does not fully 
comply with the minimum standards and is not making significant 
efforts to do so. There is no question that North Korea has 
serious problems in terms of dealing with those issues.
    The fifth question that you asked about was the food 
situation in North Korea. As you know, North Korea has serious 
problems in terms of providing food for its population. Under 
average conditions, it provides enough food for about 80 
percent of the population.
    This year, the government of the DPRK has requested 
assistance from a number of governments, private institutions, 
the World Food Program. There have been assessments conducted 
by American NGOs, by the World Food Program, and as you 
mentioned last week, I led a team to Pyongyang to analyze the 
food situation in North Korea where we were able to have a 
field team that is out in the field analyzing what the 
circumstances and conditions are. I had the opportunity of 
discussing with North Korea leaders the requirements that we 
would have in terms of monitoring what goes on, if we are to 
provide food aid.
    I want to emphasize, first of all, that we have not made a 
decision on providing food. Our field team will be back from 
Pyongyang later this week, and sometime in the future we will 
be making a decision on that issue, but I would emphasize that 
the consideration that is most important in making a decision 
on food will be the need. We will not take political 
considerations into account in deciding whether to provide aid.
    We will also have to look at competing requirements for our 
resources, and we will have to be assured that we have the 
ability to monitor the delivery of the food aid.
    I want to mention one last comment in terms of my visit to 
Pyongyang. During the last meeting we had with the First Vice 
Foreign Minister, during the dinner he commented that my title 
caused them some problems. That became an occasion where we had 
an exchange on human rights that lasted some 20 minutes.
    The conclusion of that was they were willing to talk about 
human rights. They are willing to look into some of the issues 
that we are interested in raising with them. He invited me back 
to Pyongyang to have discussions on human rights, and I am 
looking forward to possibly having that opportunity.
    Thank you very much. I hope I didn't take too long.
    [The prepared statement of Ambassador King follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Ros-Lehtinen. Thank you, Dr. King. Thank you so 
much.
    Mr. Yun.

  STATEMENT OF THE HONORABLE JOSEPH Y. YUN, DEPUTY ASSISTANT 
       SECRETARY OF STATE, EAST ASIAN AND PACIFIC AFFAIRS

    Mr. Yun. I thank you, Madam Chairman and Mr. Berman and 
members of the committee. Thank you for the invitation to 
testify today. As you requested, I am very pleased to discuss 
the central aspects of our Burma policy, recent developments, 
and the implementation of the JADE Act.
    We are pursuing a dual track approach, combing pressure 
with principled engagement. The goals of this policy are to 
achieve the unconditional release of all political prisoners, 
respect for basic human rights, an inclusive dialogue with 
Nobel Laureate Aung San Suu Kyi and others that would lead to 
national reconciliation, and adherence to U.N. Security Council 
resolutions on nonproliferation. I would say the last is 
especially relevant to North Korea and Burma military trade.
    The U.S. plays a leading role in shining a light on the 
Burmese regime's dismal human rights record. We maintain 
extensive, targeted sanctions against the regime and its key 
supporters. We work closely with the European Union and its 
member states, Canada, Australia, Japan, Korea, Southeast Asian 
nations and others to press the regime to undertake genuine 
reform.
    U.S. sanctions are based on a series of executive orders 
and key legislation passed over the past 20 years. The most 
recent Burma-specific legislation, the Block Burmese JADE Act 
of 2008, helps to ensure that we do not allow the use of our 
resources to perpetuate authoritarian rule. The JADE Act 
includes provisions for financial and travel sanctions that 
target former and present leaders of the Burmese Government, 
officials involved in the repression of human rights, other key 
supporters of the government and their immediate family 
members.
    As you mentioned, Madam Chairman, the JADE Act requested 
the appointment of a special representative and policy 
coordinator for Burma to ensure high level focus on improving 
the situation in Burma and promoting democratic reform in human 
rights.
    As you mentioned, we are very pleased that the President 
has nominated Derek Mitchell for this position. He brings a 
wealth of the Asia experience and senior government experience 
to the table. If confirmed, Mr. Mitchell will carry out his 
mandate to advance all aspects of our Burma policy.
    The JADE Act also bans the import of Burmese jade, rubies 
and related jewelry to the United States. This aspect of the 
Act is effective, although Burma's regime reaps significant 
revenues from its tightly controlled gemstone industry and 
exports to neighboring countries.
    Recognizing that sanctions alone have failed to produce 
significant reform, we have engaged in direct dialogue with 
senior officials over the past 18 months. Assistant Secretary 
Kurt Campbell traveled to Burma in 2009 and 2010. I have also 
made two visits to Burma, one in December 2010 and, more 
recently, 2 weeks ago.
    Burmese authorities expressed the desire for improved 
relations with the United States, but to date have failed to 
address our core concerns. We are disappointed by the lack of 
results, although from the outset we expected that real change 
would be a long, slow process. We will continue to urge the 
regime in private and in public to engage constructively and 
undertake meaningful reform.
    Burma's 2010 elections, its first in 20 years, were based 
on a fundamentally flawed process with restrictive regulations 
that excluded Burma's largest pro-democracy party, the National 
League for Democracy. These elections were neither free nor 
fair.
    The regime's proxy political party, the Union Solidarity 
and Development Party, won the majority of contested 
parliamentary seats, while 25 percent of all seats were 
reserved for military appointees. Members of opposition and 
ethnic minority parties won a negligible number of seats.
    Subsequently, the ruling authority, the State and 
Development Council, officially dissolved, and President Thein 
Sein, the former prime minister and a retired general, assumed 
power. His government comprises almost all active or former 
military leaders of the regime.
    Following the election, the regime released Aung San Suu 
Kyi from 7\1/2\ years of house arrest, the end of an 
unjustified sentence.
    Currently, members of the international community, when 
allowed to visit Burma, are able to consult with her, as is our 
Embassy in Rangoon. I had the opportunity to discuss a wide 
range of issues with her during my own visits.
    We are committed to supporting Aung San Suu Kyi's efforts 
to seek reinstatement of the NLD and to hold a meaningful 
dialogue with the senior government authorities.
    Our challenges in Burma remain daunting, and the human 
rights situation remains deplorable. The U.S. alone cannot 
achieve progress in Burma, and we are working very closely with 
our European allies and our Asian and regional partners to urge 
the Burmese Government to engage constructively with the 
international community and address longstanding concerns.
    Thank you for inviting me to testify before you today. I 
welcome any questions you may have. Thank you.
    [The prepared statement of Joseph Yun follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Ros-Lehtinen. Thank you so much.
    I am going to break protocol a second, and I would like to 
recognize Mr. Connolly for 1 minute, because he was not there 
for the opening statements, and you had 3 minutes--1 minute.
    Mr. Connolly. I thank you, Madam Chairman and, forgive me, 
I have another hearing in another room. So that is why I was 
absent.
    I just want to welcome our witnesses and, thank you, Madam 
Chairman, for holding this hearing today. Very important, and 
we are delighted to have a special guest, Richard Gere, to talk 
about Tibet as well.
    Highlighting the human rights issues in all three of these 
countries, I think, is very important to the United States 
Congress to send an unadulterated message that this congress is 
committed to the pursuit of human rights in every country in 
the world. We believe that human rights is a universal 
aspiration, not just an American value, though an important 
American value, and hopefully, this hearing will further that 
cause.
    Thank you, Madam Chairman.
    Chairman Ros-Lehtinen. Thank you, Mr. Connolly.
    Mr. Baer is recognized.

  STATEMENT OF THE HONORABLE DANIEL B. BAER, DEPUTY ASSISTANT 
     SECRETARY OF STATE, DEMOCRACY, HUMAN RIGHTS AND LABOR

    Mr. Baer. Thank you very much, Madam Chairman.
    Before we begin, I ant to thank you also, not only for 
inviting me, but also for inviting the second panel, the 
citizen experts and advocates that are part of that panel are 
an important part of this conversation, and I am very grateful. 
I am also very grateful that the person whose Tibet testimony 
will be a focus today will not be my own. So thank you very 
much for inviting Richard as well.
    More seriously, before we begin, I want to say how much 
being in this chamber reminds me of how proud I am to be an 
American and how proud I am that our Government is so deeply 
and thoroughly committed to advancing the cause of human 
rights. Your holding this hearing today, the members of this 
committee holding this hearing today is an example of that 
commitment, and I am honored to be here to speak with you, and 
I am honored to do the work that I get to do at the State 
Department every day.
    It is my pleasure to be here on behalf of Under Secretary 
Maria Otero, the Special Coordinator for Tibetan Issues, to 
report that the Department of State is aggressively 
implementing the provisions of the Tibetan Human Rights Act--
Policy Act of 2002.
    The administration's goals in implementing this act are 
twofold: First, to promote a substantive dialogue between the 
Chinese Government and the Dalai Lama or his representatives; 
and, second, to sustain Tibet's unique religious, linguistic, 
and cultural heritages.
    The administration, including the President, Secretary 
Clinton, Deputy Secretary Steinberg, Under Secretary Otero, 
Assistant Secretaries Campbell and Posner and myself, has urged 
the Chinese Government to engage in a dialogue with the Dalai 
Lama or his representatives and, through dialogue, to seek 
results. Regrettably, the Chinese Government has not engaged in 
such a dialogue since January 2010.
    We continue to remind the Chinese Government that the vast 
majority of Tibetans advocate, not for independence, but rather 
for genuine autonomy in order to preserve Tibet's unique 
culture, religion, and fragile environment.
    We believe that the Dalai Lama can be a constructive 
partner for China. His views command the respect of the vast 
majority of Tibetans, and he has consistently advocated 
nonviolence. Engagement with the Dalai Lama or his 
representatives to resolve problems facing Tibetans is in the 
interest of the Chinese Government and of the Tibetan people.
    In addition to pressing for results based dialogue, we are 
implementing the act with Congress' support by helping 
nongovernmental organizations that work in Tibet and assist 
Tibetan refugees in the region. Through numerous programs, the 
State Department and the U.S. Agency for International 
Development support cultural and linguistic preservation, 
sustainable development, and environmental preservation in 
Tibet and Tibetan majority areas, as well as Tibetan refugee 
communities in other countries.
    Under Secretary Otero recently visited programs in India 
and Nepal where we assist Tibetan refugees and where we are 
actively seeking ways to strengthen Tibetan refugee 
settlements. Next month USAID's India mission expects to issue 
an award for a new $2 million, 2-year program to support 
Tibetan settlements in India, Nepal, and Bhutan.
    Of course, our own efforts continue against a backdrop of 
continuing repression. We are extremely concerned about the 
deteriorating human rights situation in China and, in 
particular, in the Tibet autonomous region and other Tibetan 
areas. Recent regulations restricting Tibetan language, 
education, strict controls over the practice of Tibetan 
Buddhism, and the arrests of prominent nonpolitical Tibetans 
reflect the troubling human rights situation there today.
    Religious restrictions in Tibetan areas have dramatically 
worsened in recent years. Discriminatory religious policies 
have exacerbated tensions between Han Chinese and Tibetan 
Buddhists, and triggered the 2008 riots that claimed the lives 
of Han and Tibetan civilians and police officers.
    Chinese authorities control Tibet's monasteries, including 
the number of monks and nuns, and interfere in the process of 
recognizing reincarnate lamas. Monks and nuns are forced to 
attend regular political patriotic education sessions, which 
sometimes include forced enunciations of the Dalai Lama.
    As Secretary Clinton has said, we were deeply concerned 
when we received reports in mid-March of this year that a young 
Tibetan monk at the Kirti monastery in Sichuan self-immolated 
in protest over the removal of monks from the monastery 
following the 2008 riots. Reports state that as many as 300 
monks were forcibly removed from Kirti again in April of this 
year, and paramilitary forces still have the monastery on 
lockdown.
    The State Department's international freedom and human 
rights reports state that the Chinese Government represses 
freedom of speech, religion, association and movement within 
Tibet, and routinely commit serious human rights abuses, 
including ex judicial killings, detentions, arbitrary arrests, 
and torture.
    President Obama and Secretary Clinton have raised Tibet 
human rights concerns directly with Chinese officials multiple 
times, including with President Hu during his January 2011 
visit to Washington. The President and Secretary Clinton met 
with the Dalai Lama in February 2010, and the Secretary raised 
Tibetan issues directly and at length in the 2010 and 2011 
strategic and economic dialogues with China.
    Under Secretary Otero has met with the Dalai Lama four 
times since October 2009, and with his special envoy, Lodi 
Gyuari, nine times in the last 12 months. In April at the human 
rights dialogue in Beijing, Assistant Secretary Posner and I 
raised our concerns about China's counterproductive policies in 
Tibetan areas of China, and reiterated our call for resumption 
of dialogue, and also raised specific cases.
    We were joined in that effort by then Ambassador Huntsman, 
who visited the Tibetan autonomous region last fall. We also 
met with the United Front Work Department which handles Tibetan 
policy for the Chinese Government, and pressed the Chinese to 
set a date with Lodi Gyuari for the next round of talks.
    We again raised concern about Tibetan religious freedom 
with Minister Wang Zuo'an from the State Administration of 
Religious Affairs. Separately, we have provided to the Chinese 
authorities a comprehensive list of individuals from across 
China who have been arrested or are missing, and that list 
included many Tibetans, including six cases that we 
specifically raised during our meetings.
    As I said when I began, I along with the rest of the 
administration share the goals that Congress expressed through 
the Tibetan Policy Act. We will continue to press the Chinese 
Government to respect internationally recognized human rights 
in Tibetan areas and throughout China, and we will continue to 
support efforts to help Tibetans maintain their cultural, 
linguistic, and religious heritage.
    Thank you again for inviting me today.
    [The prepared statement of Mr. Baer follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Ros-Lehtinen. Thank you very much.
    Thank you trio for excellent testimony.
    I would like to ask about the Dalai Lama's upcoming visit, 
as you related the meeting that had taken place. But during the 
Dalai Lama's October 2009 visit to Washington, he was not 
invited to meet with President Obama at the White House. The 
President then had a state visit to China just 1 month later, 
and prior to that the Dalai Lama had met with every President 
during every visit to Washington since 1991.
    The Dalai Lama, as you pointed out, did meet with President 
Obama in February 2010, but was escorted out a back door, 
blocked by snow drifts and garbage bags. We have all seen that 
disrespectful image. His Holiness, the Dalai Lama, is coming 
back to Washington this July, next month. Do you see any reason 
why the White House would not invite the Dalai Lama to meet 
with the President next month?
    Mr. Baer. Thank you, Madam Chairman. As you said, every 
President for the last 20 years has met with the Dalai Lama as 
an internationally recognized religious leader and a Nobel 
laureate, and including President Obama. I don't know the 
specific plans for the upcoming visit, but I know that he met 
with him in February 2010, and we are aware that the upcoming 
visit is planned for July.
    Chairman Ros-Lehtinen. I would strongly encourage the 
President to pay the proper respect that this leader deserves, 
and that that sad escort out the back door was shameful. He 
deserves better treatment than that. So we hope that they have 
a productive meeting, and we also hope that he is treated with 
the respect that he has earned.
    On Burma, I would like to ask about the administration's 
pragmatic engagement policy, whether it is principled 
engagement, pragmatic engagement, with the junta in Burma. It 
is a test case for President Obama's statement that he made, 
his inaugural pledge to ``extend a hand, if you are willing to 
unclench your fist.'' However, this engagement policy appears 
to have borne little fruit.
    Since its adoption, we have seen an American citizen 
imprisoned and tortured, Burmese generals engaged in possible 
nuclear proliferation with North Korea, a flawed election last 
year, and the continued imprisonment of over 2,000 political 
prisoners, with only one, Aung San Suu Kyi, released. Can you 
please comment on what, if anything, has actually been gained 
from over 2 years of this pragmatic engagement with the 
generals in Burma?
    Mr. Yun. Thank you, Madam Chairman. I would agree with you 
that the engagement side of our dual-track policy has yielded 
very, very limited, if any, gains so far. I wouldn't like to 
point any items as having made progress.
    I think there are a number of enormous challenges there. 
Number one, what do we do about political repression, as you 
mentioned, represented by over 2,000 political prisoners?
    What do we do about ethnic minority groups that are 
especially on the border area that continues to be deprived of 
some of the basic rights; and then, number three, the economic 
backwardness and lack of basic health care, basic education, 
and so on. While we do very much admit that engagement has made 
very little traction, I think our overall assessment is we got 
to continue the dual track side, both engagement as well as 
pressure track.
    We would say that one of the more bright aspects is our 
effort to engage ASEANs, especially neighbors such as Vietnam, 
Indonesia, Thailand, and other countries, and I think they are 
coming around to having a discussion with us. If anyone has 
leverage over Burma and the government, we believe it is the 
neighbors in ASEAN. So working with that side, the regional 
side, multilateral side, we believe very important, and we are 
having some traction there. Thank you.
    Chairman Ros-Lehtinen. Thank you, sir. Ambassador King, 
congratulations on gaining the release of U.S. citizen Eddie 
Jun. As you know, many of us have been worried about any quid 
pro quo about food aid in exchange for his release. I know that 
you spoke about it in your statements, but we worry that, if 
there had been any discussions about an exchange for someone's 
life, that that only encourages these hostile regimes to take 
further hostages so that they can get something in return. But 
my time is up, and I will be glad to yield now to my friend, 
Mr. Berman, for his questions.
    Mr. Berman. Thank you very much, Madam Chairman. I have 5 
minutes for both question and answers. We have three countries, 
three witnesses. So I will try to keep myself under control and 
ask three questions, and then--ask questions to each of you, 
and then, hopefully, enough time for you to answer.
    North Korea: Ambassador King, assuming a decision is made 
to provide food aid based on this need criteria, what can we 
realistically do to ensure there is no diversion of that food 
assistance?
    Mr. Baer, we now give assistance, about $16 million a year, 
helping Tibetan refugees who cross the Himalayas, helping 
Tibetans preserve their cultural identity, giving political 
support to the Dalai Lama in negotiations with Beijing. How 
would cuts to these programs affect the Tibetan refugee 
population in India and Nepal as they seek to preserve their 
culture? Would the Chinese Government see or portray such cuts 
as diminishing support for Tibet in the U.S.? Would this action 
undermine--not that I see great hope for it--the Tibetan-
Chinese dialogue that the U.S. has promoted?
    Mr. Yun, on Burma: The chair asked a question that I was 
going to ask regarding what we are getting. I supported the 
decision to go to a principled and pragmatic engagement with 
Burma, but 2\1/2\ years later, one asks, other than Aung San 
Suu Kyi, what we have gotten for it. What role will the special 
envoy play on things like the Burmese regime's refusal to 
release all political prisoners? Play that out for us, what do 
we do now?
    Ambassador King. Do I get to go first?
    Mr. Berman. 3 minutes left.
    Ambassador King. I will take one. With regard to monitoring 
and being certain that food is not being diverted, if we 
provide food aid to North Korea, there are a number of things 
that we have done in the past that we continue to work on with 
the North Korean Government now. First of all, we would provide 
monitors who would be on the ground in North Korea, who would 
have access to the delivery of the food, who would follow its 
delivery and make sure that the food that is allocated would be 
delivered to places where it is supposed to arrive.
    We would make sure that those monitors are Korean language 
speakers or that there are Korean language speakers there, so 
that we will be able to follow it fairly closely.
    The kinds of food we provide would be the kinds of food 
that are less desirable for the elite, for the military. For 
example, we would not provide rice. We would focus on some kind 
of a nutrition program that would provide other kinds of food 
that would be harder to divert, and we would also bring the 
food in at a very deliberate pace rather than having a large 
amount come in at one time that would have to be delivered in 
large quantity.
    So it is a process that we have developed over time that, I 
think, would be----
    Mr. Berman. I can't control myself. Let me add a question 
to this mix. What would a decision to provide food aid--how 
would that affect South Korea? What would their reaction be to 
that decision?
    Ambassador King. We have had lengthy discussions with South 
Korea about providing food assistance. They would prefer that 
we not provide food assistance. On the other hand, they have 
allowed NGOs in South Korea to provide on their own.
    Mr. Berman. Mr. Baer?
    Mr. Baer. Thank you, Mr. Berman. You asked about the $60 
million a year of programming support that we provide both 
within and to Tibetans outside of Tibet. One way to look at 
that is, depending on how you count, it is about $2 a person 
for Tibetans, and I think those investments are very well made 
in terms of supporting the sustaining of linguistic, cultural, 
religious culture as well as in providing support, particularly 
for the refugee communities in neighboring countries.
    You asked what the impact would be. The impact would be 
significant of reducing that, I think, both the direct impact 
on the people who benefit from that support and, as you rightly 
put, we can't control the way that a cut like that would be 
perceived, and we can predict that it would likely be perceived 
as a weakening of our commitment in a political sense.
    So we very much support continuing that support for the 
Tibetan people.
    Mr. Berman. Mr. Yun, you got 20 seconds.
    Mr. Yun. Thank you, Mr. Berman. We cannot do this alone. We 
have to have the international community with us to bring about 
any significant change in Burma. That means especially the 
Asians, Southeast Asians, Europeans. They have to be with us. 
We cannot do it alone, and that will be the main job, I 
believe, of the special envoy.
    Chairman Ros-Lehtinen. You did a good job of controlling 
yourself. Thank you. Mr. Smith, the subcommittee chairman on 
Africa, Global Health, and Human Rights.
    Mr. Smith. Thank you again, Madam Chair. Let me just ask 
Mr. Baer. I guess my question would be to you. Mr. Gere in his 
testimony notes that the Chinese Government has intensified its 
already restrictive policies that undermine Tibetan culture and 
religion, increasingly so since the 2008 uprisings in Tibet.
    Tibet remains largely sealed off to the outside world, and 
he goes on to talk about how hundreds of Tibetans, including 
monks and nuns, remain imprisoned for engaging in nonviolent 
dissent, and are subjected to torture or reeducation.
    He concludes in his testimony that China, again, is 
intensely focused on debate for rational and irrational 
reasons, and obviously makes a strong appeal and admonishes all 
of us to push for the autonomy issue as a win-win situation.
    My question is: What role, in your opinion, does Hu Jintao, 
the man who, when he was deployed to Tibet in 1989, even before 
that--he met with the Panchen Lama mysteriously, the Panchen 
Lama, we believe, was murdered. Nobody knows for sure, and it 
was Hu Jintao who ordered, as we all know, martial law and a 
crackdown in the immediate aftermath when the Dalai Lama got 
the Nobel Peace prize, all of this immediately prior to the 
Tiananmen Square massacre. Then all of a sudden, Hu Jintao is 
on a meteoric rise, a vertical rise, in the government, 
obviously landing where he is today.
    So my question is the Hu factor. Do we fully appreciate the 
bias, the, I would call it, hatred that Hu Jintao has toward 
the Tibetan people, the monks, the Dalai Lama in particular, 
and when President Obama did meet with him, many of us were 
profoundly disappointed that, when he had his press conference 
with Hu Jintao at the White House followed by a state dinner 
with all the flourishes, that human rights were not addressed 
by the President of the United States publicly.
    It was so bad that the Washington Post editorial the next 
day noted that President Obama defends Hu on rights, and 
President Obama went on to say that they have a different 
culture, they have a different political system. Yet the 
culture is one that desperately desires freedom and democracy, 
and the political system happens to be a brutal dictatorship. 
Don't offer a defense for that, President Obama. And yet he 
did.
    So my question is--and I know you can say how many times we 
have dialogues and this and that, but it seems to me that, if 
there is not a focused, concerted, consistent, predictable, 
absolutely transparent statement from the President of the 
United States to his counterpart unelected dictator, Hu Jintao, 
much of what we are trying to do collectively on both sides of 
the aisle to help the Tibetan people and all those who are 
suffering in China goes and is laid aside.
    The Hu factor, the autonomy--was autonomy raised by the 
President in his visit with Hu Jintao at the White House or at 
any other meetings, and again that press conference will long 
live in my memory and many others' as a grotesquely missed 
opportunity. He could have done it in very diplomatic tones, 
but he didn't. So if you could.
    Mr. Baer. Thank you, Congressman. First of all, I agree 
with you that President Hu's record on Tibet is not a good one. 
President Obama engaged him directly on the autonomy issue on 
his visit, and he also called for him, publicly, to meet with 
the Dalai Lama in February of this year.
    I agree that we need to maintain a focused, concerted 
effort. We need to not lose focus, and we need to not let 
things fall by the wayside. We need to continually raise these 
issues. When I was in Beijing in April with assistant Secretary 
Posner for the Human Rights Dialogue, this was raised 
repeatedly in many meetings with different parts of the Chinese 
Government.
    I think that Secretary Clinton and Vice President Biden, 
most recently when the Chinese were here for the strategic and 
economic dialogue, made clear that not only the issue of Tibet, 
which the Secretary raised at length in her meeting with her 
counterpart but also the broader issue, the broader repression 
in China right now is a serious, serious concern.
    It is problematic for the U.S.-China relationship. As Vice 
President Biden said, we can't have a firm foundation for that 
relationship----
    Mr. Smith. On that point, if I could, because I am almost 
out of time: Sophie Richardson asks--she has a number of urges 
to the committee and to the administration--that there needs to 
be an ask for the release of Tibetan prisoners prior to Vice 
President's visit to China later this summer. Will Vice 
President Biden ask for the release of those prisoners before 
his visit, and insist upon it?
    Mr. Baer. We routinely ask, and I expect that we will 
continue to routinely ask for the release of not only Tibetan 
prisoners but other prisoners. We raised the case of Gao 
Zhisheng, who you raised. The Secretary has raised his case 
several times, and we will continue to do that. Yes.
    Chairman Ros-Lehtinen. Thank you very much. Thank you, Mr. 
Smith. Mr. Connolly is recognized for 5 minutes.
    Mr. Connolly. Thank you, Madam Chairman. Mr. Baer or Mr. 
Yun, with respect to Burma, the administration announced back 
in the fall of 2009 a shift in policy toward--we characterized 
as pragmatic engagement. In the ensuing 20 months, are there 
things we can point to that we think show positive development 
from a shift in that policy to pragmatic engagement?
    Mr. Yun. Thank you very much. As previously mentioned, I 
think the key item, the key gain from principled engagement is 
our ability to have meaningful exchanges with neighbors, ASEAN 
countries as well as the regional countries. I would agree with 
Madam Chairman's assessment that, in terms of concrete gains 
coming out of Burma, we have had very few.
    Mr. Connolly. Not much.
    Mr. Yun. Yes.
    Mr. Connolly. In terms of human rights, good for them in 
positively engaging with their neighbors, but what about 
internally in terms of the plight of Burmese citizens who are 
still incarcerated, detained, and abused?
    Mr. Yun. That remains the same and deplorable. There are 
still about 2050 political prisoners there.
    Mr. Connolly. One likes the idea of pragmatic engagement, 
but one wonders whether that policy is working.
    Mr. Yun. I think, having said that, we have had this policy 
for now about 2 years, and I think we should give it a chance. 
In order for any policy to work, we have to bring along the 
international community. We cannot do it alone, and how do you 
bring along the international community? I think that is the 
key question.
    Right now, you have heard ASEANs saying that, in January, 
that sanctions ought to be lifted. So we need to engage them 
saying that we need to go the same direction. As you know, what 
has happened in Burma is that it has turned increasingly to 
China, and how do we manage that in terms of their less 
dependence on other countries and more dependence on China?
    So I think all these things have to be taken into account, 
and to say that right now the engagement policy has had limited 
gains, I don't think it translates into we should not pursue 
it.
    Mr. Connolly. Yes, although it is your own testimony you 
just gave that said it was limited gains.
    Mr. Baer, speaking of China, you cited the fact that 
Secretary Clinton brought up the issue of the Dalai Lama and 
the need for the Chinese to meet. How is that going?
    Mr. Baer. The Chinese have not offered dates for another 
round of that dialogue since January 2010. That is the longest 
gap since the dialogue started in 2002.
    We will continue to raise, as we have several times in 
recent months, the fact that we think that it is, as Richard 
Gere's testimony says, a win-win, that the dialogue can be a 
fruitful way of finding solutions to problems facing the 
Tibetan people, that raise tensions that are problems for the 
Chinese Government, and that they should not shy away from the 
dialogue. They should embrace the dialogue, that the Dalai Lama 
is a good interlocutor for them, and that the dialogue can be 
productive, if they will engage.
    Mr. Connolly. No, I understand our message, Mr. Baer. The 
question is results. Have the Chinese responded positively to 
that importuning from the Secretary of State?
    Mr. Baer. They have not.
    Mr. Connolly. They have not. Do we have any reason to 
believe they are going to?
    Mr. Baer. I hesitate to make predictions about the 
decisions of the Chinese Government. We will continue to raise 
it. I think that we will continue to press the point that it is 
in the pragmatic interest of the Chinese Government.
    Mr. Connolly. Well, as the chairman said, perhaps one way 
to do that is to make sure he is fully welcome at the White 
House. That might be an interesting symbol for the Chinese to 
underscore the point you are making.
    Mr. King, Ambassador King, I have only 36 seconds, but 
don't we need, speaking of the Chinese, the Chinese, frankly, 
to use their leverage with the North Koreans if we are going to 
ever get behavioral changes in Pyongyang?
    Ambassador King. Definitely, and we are working with the 
Chinese. I think the Chinese find some of the same frustrations 
working with the North Koreans that we do.
    Mr. Connolly. There was just a visit by the North Korea 
leader to China. Do we have reason to believe that the Chinese 
sort of sat him down and a Chinese uncle talk with him?
    Ambassador King. We have reason to believe that they raised 
the issue of resuming the Six-Party Talks and more cooperative 
response on the part of the North Koreans, yes.
    Mr. Connolly. Thank you.
    Chairman Ros-Lehtinen. Thank you so much. Mr. Rohrabacher, 
the Subcommittee on Oversight and Investigations chair, is 
recognized for 5 minutes.
    Mr. Rohrabacher. Thank you very much, and especially 
greetings to Ambassador King on having him back with us.
    One of the proudest moments I have had in my 22 years in 
Congress was when your former boss dragged up corporate leaders 
here to this hearing room to demand that they explain their 
complicity with the repression of the Chinese people, and I 
will never forget that, and I am very proud to have known Tom 
Lantos and served with him.
    China has allied itself with the world's worst human rights 
abusers, and is itself one of the world's worst human rights 
abusers; and you find a rogue regime murdering its people, you 
will find an alliance with China in that equation.
    We are trying to figure out why our protests haven't had 
any impact, why when Mr. Hu gets invited to the White House, he 
doesn't change his policies after something is mentioned 
somewhere to a Chinese official that we don't like repression.
    This is nonsense. This is total nonsense. We have built the 
economy of China. We have created a Frankenstein monster. It 
has been American businessmen making profit off dealing with 
that repressive, corrupt regime that is the real message that 
America is sending to China. As long as we are sending 
technology and capital investment, building their economy, 
permitting them the technology they need to repress their own 
people, they are not going to take any protest from us 
seriously. What is this win-win?
    The Chinese policy we have had has been a lose-lose, not 
only are the people of China losing and the people of Tibet and 
the other repressed groups there, the Uyghurs, and the people 
who want freedom of religion and democracy, the Falun Gong. 
Yes, they have all lost.
    America has lost at the same time. We have our corporate 
leaders over there transferring all of our technological jobs 
and our basic industry to China, strengthening their 
dictatorship.
    As long as we permit that to happen, don't think they are 
ever going to take us seriously about our protests that they 
put the Dalai Lama's next successor in prison, and we don't 
know where he is. Why should they? Why should they take us 
seriously, if there is no price for them to pay at all?
    Madam Chairman, I think we need to call corporate America 
here, the way Tom Lantos did, and put them on record, because 
these guys are obviously giving the right message, but America 
by our policy and by our building up of their economy is 
sending the wrong message to the dictators in China as well as 
in Burma and North Korea and elsewhere.
    One note. I would like to ask about Korea. There is a free 
trade agreement going through now with South Korea. Does that 
free trade agreement permit goods that are being built in that 
zone in which North Koreans can come down and work in that zone 
so that they don't have to pay them as much as they pay them in 
South Korea? Are we going to permit items from that zone to be 
exported into the United States under that free trade treaty?
    Ambassador King. I am sorry, Congressman. You are getting 
beyond my level of expertise on that. I know there has been 
concern about it.
    Mr. Rohrabacher. Well, I can tell you this much. We end up 
with a free trade treaty with South Korea that permits their 
business elite, of course, cooperating with our business elite, 
to sell products that were made basically by slave labor, 
people coming down from North Korea into that zone, working at 
wages that then go to North Korea--and they pay them a 
pittance, Madam Chairman, a pittance of that, and the rest of 
it will go to North Korea.
    If we permit that to happen, how could anybody take us 
seriously that we believe that there should be sanctions on 
North Korea or that we are opposing the dictatorship in North 
Korea, when we are financing them, and we have been financing 
them for 15 years.
    I think that the world, and especially these poor people 
who are repressed in these various countries--they can't hear 
what we say, because our actions are too loud. Our actions 
speak louder than our words, and they know when we are serious, 
and so do their oppressors.
    We will have progress in this world when people know that 
America is serious about liberty and justice and who we are 
supporting, but we haven't been serious. Thank you very much, 
Madam Chairman.
    Chairman Ros-Lehtinen. Thank you very much, Mr. 
Rohrabacher. Mr. Sires of New Jersey is recognized for 5 
minutes.
    Mr. Sires. Thank you, Madam Chairlady. I think there are a 
lot of things that haven't been said here that should be said. 
One of them is the fact that I don't think the Chinese are ever 
going to take us seriously as long as we turn around, we say to 
them, look, we are worried about human rights, and at the end 
of the conversation say, look, we need another $100 billion. 
How can anybody take us seriously when we complain about human 
rights, when they go into a State Department, they hack our 
computers, they steal our technology, we protest, and they 
ignore it?
    How can anybody take us seriously? We have the issue with 
bin Laden. We have the stealth helicopter. We had to blow it 
up. We were worried that the Chinese were going in there to 
steal the technology.
    The relationship that we have with China is too uneven, 
because every time we turn around, we are borrowing money from 
China. So I think that is a factor that has to be taken into 
consideration every time we make a case for human rights. They 
are just not going to take us seriously.
    They don't care. They are moving forward. We are moving 
backward. They just do not care about human rights. I guess we 
do have to make the efforts, but sooner or later, it has got to 
change.
    I was just wondering, how would the election of a Tibetan 
prime minister affect the relationship between Tibet and China? 
Can anybody answer the questions? If we have an election where 
we have a prime minister, can you tell me, Mr. Baer, and the 
relationship between Tibet and the United States?
    Mr. Baer. I am not sure how the recent election of the 
prime minister of the government in exile will affect the 
relationship with China. We continue to support Chinese 
engagement with the Dalai Lama and his representatives.
    Mr. Sires. That's it?
    Mr. Baer. It has been the longstanding policy through a 
number of administrations to continue to see the positive 
benefits that are available to the Chinese of engagement with 
the Dalai Lama, because of the moral authority that he commands 
within Tibet and outside of Tibet, and to believe that that is 
the best path forward for political dialogue.
    Mr. Sires. Well, I am certainly of the opinion, as Mr. 
Connolly was, that I think the President should invite him and 
should meet with him. He is a world leader. He is someone who 
represents millions of people, and to have him to go through 
the back of the White House, that is just not acceptable.
    We are supposed to be the leader in the world of human 
rights. We stand up for something. So for whatever it is worth, 
you might just want to relate to the President that there are a 
lot of people in this Congress that feel that he should receive 
and give him the honors that he deserves. Thank you very much.
    Chairman Ros-Lehtinen. Thank you, Mr. Sires. Judge Poe, the 
vice chair of the Subcommittee on Oversight and Investigations, 
is recognized for 5 minutes.
    Mr. Poe. Thank you, Madam Chair. Thank you, gentlemen, for 
being here.
    I think the overall picture should be addressed, and the 
overall focus should be on China. China is the culprit 
everywhere in the world. No matter where we are, China is 
snooping around causing trouble, and it is not good for the 
United States, and it is certainly not good for people around 
the globe.
    Human rights: China doesn't believe in humans or rights. It 
is an organized, criminal activity that is the government. They 
steal American trade secrets. They steal our products. They use 
slave labor, and yet they own most of our debt, and we seem to 
have, in my opinion, a little cozy relationship with the 
Chinese and don't take them for what they are.
    North Korea: Human trafficking, engaged in human 
trafficking into China. I think China is in on it and, when you 
have people escaping from North Korea to China--not necessarily 
the greatest stellar rights organization in the world found in 
China--you know things are bad in North Korea as far as human 
rights go.
    China gives a wink and a nod to the human trafficking of 
women into China. Probably goes back to their one child 
philosophy. I don't know, but it is going on, and that is just 
one of the many problems in China, besides Tibet, that is 
taking place as well.
    Burma: Once again, you got the Chinese nose in Burma doing 
what it can to prevent, I think, human rights in that nation.
    So I don't know if it is because they own our debt, if it 
is because we ignore the fact they are stealing all our 
products, then they reproduce them and then sell them back to 
the United States, whether they are a trade partner with us, 
but do we have as a nation a policy dealing with the human 
rights violator, China?
    Their tentacles are through the world, North Korea, Burma, 
China, but as opposed to looking at each country by itself, do 
we have a policy of dealing openly and honest with the world 
and Americans about the Chinese tentacles of consistently 
violating the rights of people throughout the world? Mr. Baer, 
do you want to weigh in on that?
    Mr. Baer. That is a big question. Look, I appreciate and 
agree with the fact that China, both domestically and as an 
international actor, has a very deeply disappointing record on 
human rights.
    I think that one of the things that will define our 
engagement with China on human rights in the years ahead is the 
increasing degree to which we recognize that, when we advocate 
for human rights and when we raise it, as we do and as we 
should and as Secretary Clinton did publicly during the 
strategic and economic dialogue, as Vice President Biden did, 
as President Obama did a few months earlier, as we continue to 
do that, it is not really about us.
    It is about us in that our commitment to human rights is 
deeply a part of who we are, but what we are advocating for is 
that the Chinese Government should recognize that people want 
to be treated with dignity. people everywhere want to be 
treated with dignity, and it is not sustainable to deprive them 
of that.
    The desire of the Chinese people and the people in other 
countries with which the Chinese have relations, including 
North Korea and Burma, to voice their own view of their 
futures, to have a say in how they are governed, to be able to 
freely assemble and associate and express themselves online--
that is a right, a universal human right that will not be 
denied. It will not be denied forever.
    Mr. Poe. Let me reclaim my time. But do we have a policy of 
dealing with China, not just with the human rights violations 
in their own country, but the fact that they are snooping 
around all over the world violating human rights of other 
people in their country? Do we have a plan?
    China ignores us. They don't take us seriously. Is it 
because they control our debt, because of the balance of trade? 
They just ignore what we have to say. Do we have a plan? I 
guess that is what I am asking. Then I will ask Mr. King to 
weigh in on that or Ambassador King to weigh in on the 
remaining of my time.
    Mr. Baer. Sir, yes, we do engage with them on their 
engagement outside of China. It is an issue that I myself 
raised during the human rights dialogue and that the Secretary 
and others have raised in our engagement with them, because, 
obviously, China's influence is not just within the context of 
our bilateral relationship but also as a rising player in the 
globe.
    So we certainly engage them, and we certainly engage them 
not only on their economic and military influence, but also on 
their influence on human rights conditions.
    Chairman Ros-Lehtinen. Judge, we are going to hold Dr. 
King. Maybe someone will follow up. Thank you.
    Mr. Poe. Thank you, Madam Chair.
    Chairman Ros-Lehtinen. Mr. Burton, the chairman of the 
Subcommittee on Europe and Eurasia, is recognized for 5 
minutes.
    Mr. Burton. Thank you, Madam Chairwoman. There is an 
estimated 8-10 million people in reeducation camps or gulags in 
China, and I would like to follow up just briefly on what Mr. 
Smith was talking about, that we rolled out the red carpet for 
the head of the Chinese Government, and at the press conference 
there was no mention about the human rights violations that are 
taking place there and in the other countries that surround 
China. Do you have any idea why this administration and why the 
President hasn't been very public about these horrible human 
rights abuses?
    I would really like to know. Mr. Poe just mentioned, is it 
because of the debt that we have with them, the $1 trillion-
plus debt, or what is the reason the administration in a 
diplomatic way can't be very, very strong in expressing our 
concern about the horrible human rights situation that the 
Chinese have and use in that part of the world?
    Mr. Baer. I share your view that it is critically important 
to make it clear to the Chinese Government that their human 
rights practices, including the reeducation through labor 
camps, etcetera, are not satisfactory, are intolerable, and 
that they are a serious issue to the United States Government 
and an impediment to our bilateral relationship. But I believe 
that they know that.
    Mr. Burton. Well, when the head of the Chinese Government 
comes here and gets the red carpet treatment, and they have a 
state dinner for him and they then have a press conference with 
the President of the United States, it seems to me that there 
should have been some mention of the human rights atrocities 
that are taking place over there and in the surrounding 
countries.
    Mr. Baer. I believe that President Obama did raise human 
rights concerns publicly with President Hu, and I can tell you 
that, from the way that the Chinese Government reacts when we 
raise human rights, that they are aware that this is a serious 
concern and that it is a serious concern to them that we are 
concerned.
    Mr. Burton. Well, if that is being done or if that has been 
done, I am not aware of it. I have been on the Foreign Affairs 
Committee now for a long, long time, and since this 
administration took place, I have heard nothing from the White 
House about the human rights violations and atrocities that are 
taking place in that part of the world.
    I would like to also ask Ambassador King. South Korea 
opposes giving food aid to North Korea. They are closer to the 
problem and know more about the problem of North Korea than 
probably anybody, because they are threatened by North Korea 
all the time.
    You said that there are monitors that go in when we send 
food aid, and obviously, we want to feed starting people. But I 
remember Mengistu in Ethiopia, and Mengistu was taking millions 
of dollars worth of food and the trucks to deliver the food to 
the starving masses in Ethiopia, and he was selling it to italy 
and to other countries.
    So I would like to know how we monitor that and, if we are 
monitoring that and it is helping the North Korean people, why 
is it that South Korea is opposing it? There must be some 
reason, because they are at loggerheads with North Korea all 
the time.
    Ambassador King. We have a particularly close relationship 
with South Korea. We work with them very carefully, very 
closely. We consult with them on issues that relate to North 
Korea and that relate to regional security issues.
    We agree with them on many issues. There are some issues 
that we disagree. We have not made a decision to provide food. 
We are considering the possibility, and we have sent a team to 
determine whether there is a need that would justify it.
    Mr. Burton. Well, you said you were in Pyongyang, and you 
met with them, and you anticipate going back, and you have a 
fairly good relationship with them. I would hope that the 
President of South Korea would be included in your discussions, 
not necessarily with the North Koreans, but that you would have 
the opportunity to sit down with him and find out in detail the 
reasons why they think this is a mistake, number one; and 
number two, I think it is extremely important, if the 
administration goes ahead with this humanitarian aid, that it 
gets to the people who are starving to death there.
    Like money, like gold, you can move it around to the 
benefit of the government in question, and I certainly wouldn't 
like to see 20 percent of the people in North Korea continue to 
starve while this food aid or the money from the food aid goes 
to the Government of North Korea so that they can further their 
Communist ideology.
    Ambassador King. I have spent more time--a lot more time in 
South Korea than I have in North Korea, and I have met with 
very senior government officials, and we have had long 
conversations about the food aid situation.
    In terms of the monitoring, we have experience in the past. 
We have provided some food aid to North Korea in 2008, 2009. We 
had a letter of understanding in terms of how the aid would be 
monitored, and we think we were reasonably successful in terms 
of assuring that the aid that we provided was going to those 
who were most in need, to children, to nursing mothers, to the 
elderly, and we have ways of monitoring to make sure that it 
does.
    Mr. Burton. Well, I hope that is the case. I remember when 
we had the nuclear issue, we thought they were going to be 
trustworthy, and they weren't then as well.
    Ambassador King. Well, that is why we verify.
    Chairman Ros-Lehtinen. Thank you very much. Congresswoman 
Schmidt of Ohio is recognized for 5 minutes.
    Ms. Schmidt. Thank you, Madam Chair, and I first am going 
to direct my attention to Mr. Baer.
    Last fall I had the rare opportunity, quite by accident, to 
have a private meeting with the Dalai Lama for almost 30 
minutes, and I found him to be a remarkable, honest, holy man, 
somebody that exudes peace and tranquility, and there were a 
few messages that he gave to me, one being to make sure that 
you take care of your family, but he also wanted me to 
understand that the family extended beyond the borders of those 
that are in my own home.
    So now I feel a little bit of a responsibility toward my 
extended family in Tibet and the human rights atrocities that 
are occurring because of the Chinese Government.
    First, a simple little question, because I don't know 
whether this reflects the attitude of the administration or we 
just haven't gotten around to it, but I understand that today, 
and much of 2010 as well, there has only been one permanent 
staff member in the Tibet Coordinator's office in this 
administration. Yet under the appropriations legislation, the 
Tibet office has been given a $1 million annual budget for 
three staff members. Can you tell me why the Tibet 
Coordinator's office is not fully staffed? That is just a 
simple question.
    Mr. Baer. Thanks very much. You are right. There is one 
permanent staff member currently in that office.
    Ms. Schmidt. But it has been over a year. Why don't we have 
three? Why aren't we working harder?
    Mr. Baer. The transition in the last 6 months--the current 
occupant of the permanent staff member sitting is directly 
behind me right now, and the former occupant is now working for 
Senator Kirk. So there is only one permanent staff member. You 
are right.
    Since the coordinator is in the Under Secretary's office, 
there are a number of us who work on a daily basis----
    Ms. Schmidt. Mr. Baer, we appropriated money for this 
particular office to focus on this particular issue, and while 
we can talk about all the other reasons why China is acting in 
the way that it is, this is just one little thing that is a 
simple fix. If we gave you the appropriations for three staff 
members, maybe we can do a better job resonating the problems 
that Tibet is undergoing if we had it fully staffed.
    So it has had well over a year. Why isn't it fully staffed?
    Mr. Baer. I understand, Madam Congressman. We have been 
trying to bridge the gap with visiting fellows, etcetera, and 
we will have--assuming the final security clearance goes in, we 
will have the second full staff member in the next few weeks.
    Ms. Schmidt. Moving on, I can see we are not going to be 
doing this in a quick time frame, and I have only a few seconds 
left.
    In eastern Tibet, sir, the Kirti Monastery is under siege 
by the Chinese security forces. Following the self-immolation 
by a Tibetan monk in April who was protesting Chinese policies, 
policies that he could no longer tolerate, the police descended 
on the monastery, and some 300 monks have been taken away for 
``patriotic education.'' I fear what that means to them.
    Two townspeople were killed trying to protect the monks 
from being taken away. What has this administration, albeit 
limited with only one person on board, done to protest the 
crackdown on the Kirti monastery? Was it brought up in the 
recent U.S.-China human rights dialogue and strategic and 
economic dialogue, and have you as diplomatic personnel sought 
to visit Kirti Monastery to assess this situation?
    Mr. Baer. Thank you. I will try to be expeditious in my 
reply. Yes, as soon as we heard about the reports about the 
events at Kirti, starting with the self-immolation on March 16 
and the crackdown following, we immediately engaged, but we 
raised this incident at length, particularly, in a meeting with 
United Front Work Department in Beijing.
    Ms. Schmidt. Have we visited the monastery?
    Mr. Baer. We have not visited the monastery.
    Ms. Schmidt. Why haven't we visited the monastery?
    Mr. Baer. We have requested a visit to the monastery. We 
requested that several times during the course of the humans 
right dialogue, both with our interlocutor at the MFA, as well 
as the State Administration for Religious Affairs, as well as 
the United Front Work Department. We have made it clear that, 
if the Chinese Government would--if the reports of the Chinese 
Government are accurate, they should not----
    Ms. Schmidt. What would happen if we just showed up at the 
door and said I want to look?
    Mr. Baer. My understanding is that it would be very 
difficult for us to get to the door.
    Ms. Schmidt. Have we ever tried?
    Mr. Baer. I do not know the answer to that question.
    Ms. Schmidt. Thank you.
    Chairman Ros-Lehtinen. Thank you very much, Ms. Schmidt. I 
am very pleased to recognize Ms. Buerkle, the vice chair of 
Subcommittee on Terrorism, Nonproliferation, and Trade, for 5 
minutes.
    Ms. Buerkle. Thank you, Madam Chairman. Quite honestly, I 
am sitting here listening to China's record, the concern that 
we have, whether it is that they own our debt, the abysmal 
human rights record that they have and they continue to 
perpetuate, and as I listen to you all, it is a pretty tepid 
response we are getting here today. There doesn't seem to be a 
sense of urgency.
    So with that, I want to follow up with my colleague, Judge 
Poe. He talked about a plan and understanding and 
appreciating--making sure this administration understands and 
appreciates what is going on.
    We didn't get to Ambassador King about his thoughts. If you 
can articulate for us, what is this administration's plan that 
illustrates to us an appreciation of what is going on?
    I guess I would ask all of you, why the tepid response? 
There doesn't seem this sense of urgency. Is it because they 
own our debt? Is it because we--you know, we are tiptoeing 
around here.
    Mr. Baer, you mentioned that--this is when you were asked 
by Judge Poe about the plan, you said it is not about us; China 
should recognize that people wanted to be treated with dignity.
    Well, guess what? They don't, and they won't unless the 
United States of America stands for and sends a clear message 
to them that we are protectors and preservers of human rights. 
That is what the United States of America stands for, and that 
should be the message that they get from us.
    So I will just give you an opportunity to respond to that, 
and I want to save to 1 minute to yield to my colleague, Mr. 
Smith from New Jersey.
    Mr. Baer. Let me be brief, and then my colleagues can weigh 
in. I appreciate very much your comments, and I share with you 
the sense of urgency about the condition of human rights in 
China. There has been a backsliding in recent months.
    It is of deep, deep concern, and I don't believe that 
either--speaking for myself or for Secretary Clinton, that 
there is any tepidness in our response. I think the comments of 
Secretary Clinton starting in January on the eve of President 
Hu's visit, her comments at the rollout of the human rights 
reports, her comments at the recent strategic and economic 
dialogue have made it very clear that we see this as an urgent 
concern, that we see it as China not acting in China's 
interest, but as Secretary Clinton said, through the arc of 
history countries that disrespect human rights will be less 
likely to be stable, prosperous and successful.
    So we have made it very clear, I think. It hasn't been 
tepid at all, and I would say to you today, I certainly--for my 
own part, in my work within the department and when I travel to 
Beijing, Ambassador Huntsman was engaged. I expect Ambassador 
Locke to be deeply engaged in these issues.
    These are an urgent concern for the United States 
Government.
    Ms. Buerkle. If I could just interrupt here, why then--how 
do you account for the backsliding that you just referred to?
    Mr. Baer. Well, the backsliding has to do with decisions 
made by the Chinese Government, and it is true that we, the 
United States Government, are not the only lever that affects 
how the Chinese Government makes their decisions, but we are 
taking a number of actions to make clear to them that, from our 
perspective, this is not in their interest, and it is also 
inconsistent with what we need to see in order to have a 
positive bilateral relationship in the future.
    Ms. Buerkle. Thank you. I have 30 seconds left before I 
yield to the gentleman.
    Ambassador King. I will be quick. One of the difficulties 
with our relationship with China is that it involves not only 
human rights but a whole range of other issues.
    We depend on the Chinese in terms of dealing with Iran. We 
depend on the Chinese in terms of dealing with North Korea. The 
Chinese are a major player economically. The Chinese are a 
major player in the United nations, and we have things we would 
like them to do in the Security Council.
    Human rights is one of many issues, and we don't have the 
luxury of being able to concentrate just on human rights. Human 
rights is important. We try to put our efforts into it, and we, 
I think, have made some progress in that area.
    Ms. Buerkle. Thank you, Ambassador King. I yield my time.
    Mr. Smith. Thank you, Ms. Buerkle. I appreciate you 
yielding. Let me just ask Mr. Baer a brief question.
    Since Nuremberg war crimes tribunal and Tokyo as well, it 
has been very clear that there is no statute of limitations on 
either genocide or crimes against humanity. A few days ago 
Bosnian Serb Miladic was found and will face trial at The Hague 
for genocide at Srebrenica and crimes against humanity for the 
bombing of Sarajevo.
    As we all know, Hu Jintao ordered the murder of Tibetans in 
1989. It began his rise to power where he now metes out 
terrible human rights abuse on a daily basis. My question is: I 
believe it is time for an emphasis not just on government 
responsibility, but on holding individuals personally 
responsible.
    So my question would be: Do you believe, does the 
administration believe that Hu Jintao and others who are 
committing crimes against humanity and genocide, especially in 
Tibet, each and every day should be held accountable at The 
Hague or any other venue like it?
    Chairman Ros-Lehtinen. Thank you, Mr. Smith. That is an 
excellent question.
    Mr. Smith. That is a yes or no question.
    Chairman Ros-Lehtinen. I am very sorry, but we are out of 
time, and I thank the panelists for appearing before us, and we 
hope that you come back again with more concrete answers.
    Chairman Ros-Lehtinen. Now I would like to introduce our 
second witness panel. The chair is pleased to welcome our 
witnesses.
    Mr. Richard Gere really needs no introduction. While 
Richard is celebrated throughout the world for his impressive 
career in film, he is here today in another role of equal 
importance as an advocate for His Holiness, the Dalai Lama and 
the people of Tibet.
    Richard's interest in Buddhism in Tibet traces back to a 
trip he made to Nepal in 1978. He is co-founder of the Tibet 
House, the creator of the Gere Foundation, and the chairman of 
the board of directors of the International Campaign for Tibet. 
He has previously appeared before this committee as a witness 
in March 2007 under the chairmanship of Tom Lantos. We are very 
glad to have you back, Richard, and I thank you for being 
always so gracious as we line up our summer interns, and you 
are very kind to take a photo with each and everyone of them.
    Next we have Mr. Aung Din, who also previously testified 
before this committee in October 2009. Aung Din not only talks 
the talk, but he has walked the walk. Why do I say this? He has 
served over 4 years behind bars as a political prisoner in 
Burma. His arrest resulted from his political activities in 
1988 when he helped lead the country's nationwide pro-democracy 
uprising as vice chairperson of the All Burma Federation of 
Student Unions.
    After Amnesty International adopted him as a prisoner of 
conscience and helped gain his release, Aung Din came to 
Washington, DC. Here, he founded the U.S. Campaign for Burma, 
an umbrella group of Burmese dissidents in exile and American 
activists.
    He has received a degree in master of international service 
from American University's School of International Service in 
2007, as well as degrees from the Singapore Institute of 
Management and Rangoon Institute of Technology. Welcome back, 
Mr. Aung Din.
    We also would like to welcome Mr. Chuck Downs, the 
executive director of the Committee for Human Rights in North 
Korea. He gave us a copy of his latest publication, ``Taken: 
North Korea's Criminal Abduction of Citizens of Other 
Countries: A Special Report by the Committee for Human Rights 
in North Korea.''
    His career in defense and national security issues has 
spanned more than two decades. He previously served as Deputy 
Director for Regional Affairs and Congressional Relations in 
the Department of Defense's East Asia Office.
    As a senior fellow at the National Institute for Public 
Policy, he chaired the North Korea Working Group, which 
provided policy recommendations to the Office of the Secretary 
of Defense.
    He has published numerous articles in the New York Times, 
the Washington Post, and the Wall Street Journal, and is the 
author of a celebrated work on North Korean diplomacy, ``Over 
The Line: North Korea's Negotiating Strategy.''
    He graduated with honors in political science from Williams 
College. Glad to have you, Mr. Downs.
    Finally, the committee welcomes Sophie Richardson, the 
advocacy director of Human Rights Watch's Asia Division.
    Ms. Richardson has conducted research and published 
articles in such publications as the Far Eastern Economic 
Review and the Wall Street Journal on democracy and human 
rights in China, Hong Kong, Cambodia and the Philippines. She 
is also a commentator on Asian human rights issues, having 
appeared on CNN, the BBC and the National Public Radio.
    Ms. Richardson is a graduate of the University of Virginia 
and Oberlin College and speaks Mandarin Chinese. Welcome, Ms. 
Richardson, to our committee.
    I kindly remind our witnesses to keep your oral testimony 
to no more than 5 minutes, and without objection your written 
statements will be made as a part of the record. So we will 
start with Mr. Gere. Thank you, Richard.

    STATEMENT OF MR. RICHARD GERE, CHAIRMAN OF THE BOARD OF 
          DIRECTORS, INTERNATIONAL CAMPAIGN FOR TIBET

    Mr. Gere. How are you all doing, by the way? Everyone 
awake?
    Madam Chairman, thank you so much for having this testimony 
today. This hearing is very important, and I, for one, am so 
extraordinarily moved by the words I hear but, even more so, 
the passion in the voices and the hearts of all of you on this 
committee. You are educated. You are feeling. You are committed 
people, and as a U.S. citizen we couldn't ask for more than 
that of you. So I thank you very much for bringing that with 
you today.
    I have a long written statement. I think you all have that. 
I am not going to go through that, but I hope you would look at 
that later, because I spent a lot of time working on that. I 
will read the first few pages just for context, and I want to 
have more of a lively dialogue between us. I think it will be 
more fruitful.
    Much has been covered, by the way, so many excellent 
questions and excellent responses. I felt a little sorry for 
Mr. Baer who, obviously, is a working stiff and is defending a 
lot of things that he probably personally doesn't want to 
defend, but he did a very good job at that. I want to thank him 
for being here and taking minimal abuse today.
    As chairman of the Board of the International Campaign for 
Tibet, I appreciate the opportunity to testify here on an issue 
that challenges our moral compass and our ability to settle 
fundamental differences between people without resorting to 
violence.
    There are few international issues that have remained 
unresolved as long as Tibet has, nor one that has so intensely 
engaged the emotions of the American people. We Americans care 
about Tibet. As Senator Daniel Moynihan once said, ``The 
Chinese invasion of Tibet in 1949 does not become less criminal 
because it has remained in place over such a long period of 
time. The Chinese have been brutal. They have made no bones 
about it and have made no apologies.''
    The question of Tibet's incorporation into the People's 
Republic of China and the status of the Tibetans impacted by 
Chinese rule in an issue that continues to create obstacles in 
the U.S.-China relationship, and for good reason. China 
resolutely refuses to recognize the Tibetans' basic rights as 
defined not only by the Universal Declaration of Human Rights 
but also by the Chinese constitution that contains clear 
protections for national minorities, whether they are Uyghurs, 
Mongolians or Tibetans.
    I would like to note that, more recently, we have begun to 
witness the same intensified persecutions against Chinese 
citizens also, artists, writers, poets, lawyers, free thinkers, 
even simple farmers who have been aggressively pursued, in some 
cases disappeared, imprisoned or even tortured, all outside the 
framework of law. The vast apparatus of the People's Republic 
of China moves against any expression of free thinking that is 
perceived as challenging the authority of the Communist party, 
no matter how nonviolent or benign, which sounds suspiciously 
like North Korea, Burma and any other authoritarian regime on 
the planet.
    I think we should view the subject of today's hearing, 
North Korea, Burma and Tibet, as case studies that are not 
dissimilar to failed systems where long simmering tensions have 
erupted into violence elsewhere in the world, cases we have 
seen today where legitimate grievances are left unattended, and 
fundamental freedoms are violently suppressed, where the voice 
of the people is stifled, and the rule of law fails to protect 
chronically and systematically.
    Now to quote Secretary Clinton, Beijing is on a ``fool's 
errand'' to think it is immune to change or that it can 
continue to suppress the will of its people to communicate 
freely as human beings on this small interconnected planet.
    If the concept of the will of the people is meaningful to 
us at all, as many of us believe--I think everyone in this room 
does--then we need to look very carefully at how we engage the 
People's Republic of China vis a vis Tibet. We can do, and we 
must do much, much better.
    Just something I would like to offer before I finish this 
part of my discussion is that neither the International 
Campaign for Tibet nor the people of Tibet are interested in 
China bashing. We have no interest in China failing. We would 
like to see a successful China, but one that is worthy as 
being, as the Dalai Lama says, an older brother to the other 
nations of Asia, a kind, generous, open, beneficent entity in 
Asia, and for it to be that is a success, truly a success.
    I think, if we follow our own hearts as Americans, and as 
we have evolved our own system and insist that all of our 
decisions vis a vis China come from that place, we can help 
them to become truly successful, and in that process, of 
course, Tibet will prosper. I have no doubt about that. Thank 
you all very much.
    [The prepared statement of Mr. Gere follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Ros-Lehtinen. Thank you very much.
    Mr. Downs.

STATEMENT OF MR. CHUCK DOWNS, EXECUTIVE DIRECTOR, COMMITTEE FOR 
                  HUMAN RIGHTS IN NORTH KOREA

    Mr. Downs. Thank you, Madam Chairman. It is a great 
pleasure for me to be here today. As some of you may recall, I 
spent a few years working on Capitol Hill for the Policy 
Committee. I have the greatest respect for this particular 
committee and everything you have done for North Korea.
    I appear before you today as the executive director of the 
U.S. Committee for Human Rights in North Korea, and my 
statement goes through a number of issues relating to North 
Korea, all of which you are familiar with. But you have asked 
me to focus on the North Korean Human Rights Act today, which 
this committee sponsored in 2004, and Madam Chairwoman, you 
reauthorized as recently as 2008. It is a great piece of 
legislation, one that stands as a hallmark of the American 
people's interest in the human rights of the people of North 
Korea. You are to be commented for that incredible achievement, 
and it gives us a roadmap from which we can look at a number of 
issues relating to North Korean human rights.
    Bob King, whose excellent appearance today, his fine 
testimony, and his recent trip to North Korea, is a living 
example of how wise it was to create a position of Special 
Envoy for North Korean Human Rights.
    My organization had the pleasure of having as its 
distinguished co-chair for many years the late Congressman 
Stephen Solarz. I actually remember helping people prepare for 
testimony before Congressman Solarz when he was the chairman of 
one of your subcommittees. His death is a great loss, as is 
that of former Congressman Lantos, he is with us in spirit 
today.
    Two thousand and four was an extremely interesting year for 
human rights in North Korea. You will all immediately think 
that that was the year that the North Korean Human Rights Act 
was passed. I believe it was passed on July 21st of 2004. The 
same year, a former U.S. military defector, Charles Jenkins, 
managed to put the North Korean Government in a position of 
having to release him so that he could join with his wife, a 
former Japanese abductee, in Japan. He left North Korea on July 
12th.
    There was another big event also in July. Some 468 North 
Korean refugees who had made it through China, went through 
Yunnan Province, made it to Vietnam, and were sent back to 
South Korea with the approval of the government and the 
cooperation of the Government of Vietnam, socialist Vietnam, 
and the Government of the Republic of South Korea.
    These actions, starting with the North Korean Human Rights 
Act, infuriated North Korea, and North Korea said in a formal 
statement issued by KCNA, the North Korean mouthpiece, ``The 
DPRK will certainly make NGO organizations in some countries 
pay for the North Korean Human Rights Act.''
    On August 14, an American citizen, a young man from Utah, 
24 years old, decided to travel by himself in Yunnan. He said 
goodbye to his friends who went back to Beijing, and he decided 
to go up the Leaping Tiger Gorge to a place called Zhongdian. 
He visited a restaurant there, a Korean restaurant, three 
times, and disappeared.
    Our organization is looking very closely at the possibility 
that this American citizen, who spoke perfect Korean because he 
had been a Mormon missionary in Korea, and he spoke Chinese 
very well and, of course, he spoke English very well with a 
Midwestern standard dialect--he may, in fact, have been 
abducted by North Korea.
    This would make the United States the 14th country to have 
lost an individual to North Korea. We quite often think that 
the Japanese were the only ones abducted from seaside resorts 
along the coast of Japan, but that is not, in fact, the case--
the North Koreans have abducted four Lebanese, people from the 
Netherlands, people from France, and a Romanian.
    The Romanian was lured to Hong Kong, found herself in 
Pyongyang. Malaysians and Singaporians were also lured to what 
they thought were job offers from people they thought were 
Japanese, and they ended up in Pyongyang. Many of these people 
were never heard from again except that they had made it into 
the notes of other abductees and other defectors and agents who 
eventually defected.
    So thank you, Madam Chairwoman. I appreciate the 
opportunity to be here and to focus on the wide range of crimes 
that North Korea commits against human rights.
    [The prepared statement of Mr. Downs follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Ros-Lehtinen. Thank you, sir.
    Mr. Din?

  STATEMENT OF MR. AUNG DIN, EXECUTIVE DIRECTOR & CO-FOUNDER, 
                    U.S. CAMPAIGN FOR BURMA

    Mr. Din. Madam Chairwoman and Mr. Berman and members of the 
committee, thank you very much for holding this hearing today.
    Last week the Chinese Government hosted leaders from North 
Korea and Burma in its capital, Beijing. So the Burmese 
President, Thein Sein received more than $760 million interest-
free loan, and Kim Jong Il also received financial and moral 
support from the Chinese Government. So with the strong backing 
and blessing from the Chinese Government, Thein Sein and Kim 
Jong Il continue their oppression against their own citizens 
unabated.
    I believe they also learned from their big brother how it 
controls its own citizens under severe restrictions and how it 
brutalizes different people and cultures.
    So this is the duty of the United States. Where the Chinese 
Government has opened its arms to embrace its fellow dictators, 
the United States Congress supports people living under the 
oppressed regimes in Burma, North Korea, Tibet and all over the 
world. Thank you, America.
    The Tom Lantos Block Burmese JADE Act authorized a 
procedure to terminate the sanctions clearly if the President 
determines and certifies that the military regime has (1) 
unconditionally released all political prisoners; (2) entered 
into a substantive dialogue with the democratic forces led by 
National League for Democracy and ethnic minorities; and (3) 
allowed humanitarian assistance to the populations affected by 
the armed conflict in all regions in Burma. Sadly, these 
conditions are not met yet.
    Almost all of the generals who have held power over the 
last 20 years are still doing so under the veneer of civilian 
rule. There are still more than 2,000 political prisoners. 
There are still more than 2 million refugees and illegal 
immigrants in neighboring countries who are forced to flee 
Burma to avoid political, ethnic and religious persecutions as 
well as economic hardship.
    There are still about a half-million ethnic people who are 
hiding in jungles and mountains inside the country to avoid 
being killed by the Burmese soldiers, and more than 3700 
villages were destroyed or burned down by the Burmese regime in 
the eastern Burma area in its decades old military campaign 
against ethnic minorities; and there are still tens of 
thousands of child soldiers within the Burmese military.
    Basic freedoms such as the freedom of press, freedom of 
association, freedom of religion and Internet freedom are 
restricted. The gap in the country between the powerful and the 
powerless, the rich and the poor, the privileged and the 
disenfranchised continues wider, unattended, and unabated.
    Therefore, I strongly call on the United States Congress 
not only to approve the renewal of the sanctions on Burma, but 
also to strengthen it and fully implement it. Let me explain
    The JADE Act has imposed targeted financial sanctions on 
former and present leaders and officials of the regime, as well 
as any other Burmese persons who provide financial, economic, 
political support for the regime, as well as their family 
members.
    The Department of Treasury has added names and entities of 
targeted people under their Special Designated Nationals (SDN) 
list. However, the Burmese cronies under the targeted sanctions 
by the Department of Treasury are much fewer in number than 
those who are sanctioned by the Governments of Australia and 
European Union. Many business cronies who are under the EU or 
Australian sanctions are still at large from the U.S. financial 
sanctions. I mention some names in my prepared testimony.
    Also, the financial sanctions should also target cronies 
who are providing the regime with political and propaganda 
support. For many years, the regime has carried out a campaign 
called Attack the Media with Media to counter international 
criticism against its illegal rule through international media 
and foreign based radio stations.
    In addition to the regime owned newspapers and TVs and 
radio stations, the regime allows some cronies to set up media 
companies and produce publications of journals and magazines, 
as well as broadcasting of FM radio stations. These 
publications and broadcasts portray the military as the one and 
only institution that can save the country from disintegration, 
attack Aung San Suu Kyi and the democracy forces as the puppets 
of the western powers, and denounce international pressure on 
the regime as unfair and biased, and praise China, Russia and 
Cuba as true friends of Burma. So I mention some names in my 
prepared testimony.
    However, financial sanctions alone will not hurt the regime 
and cronies substantially enough. Over time they can find ways 
to avoid the U.S. financial sanctions by moving their assets to 
other countries, using the Euro instead of American dollars, 
engaging with some agents to make U.S. dollar transactions, and 
setting up front companies to cover up their real identities.
    Therefore, the crucial part of the JADE Act should be 
implemented. The additional banking sanctions contained in the 
JADE Act has the power to penalize any foreign bank that is 
doing business with the regime or managing the regime cronies' 
money. So this one should be implemented. If it does, it will 
be an effective threat to the regime and its cronies and 
foreign banks that manage their money.
    So the dictators in Burma, the military and its proxy party 
do not run their country themselves alone. They are fully 
supported by the business cronies who are allowed to control 
over entire sectors of the country's economy, trade, and 
natural resources in exchange for the allegiance and wealth 
sharing with the generals. They are like Ruhr industrialist 
Fritz Thyssen, who supported Hitler and have funded Hitler and 
his Nazi party in Germany before the Second World War.
    So the United States should identify cronies like Fritz 
Thyssen in Burma and imposed financial and banking sanctions on 
them. This will be the best way to cut economic lifeline of the 
generals and further prevent them from stealing from the 
people.
    [The prepared statement of Mr. Din follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Ros-Lehtinen. Thank you for that recommendation. 
Thank you.
    Ms. Richardson.

  STATEMENT OF MS. SOPHIE RICHARDSON, ASIA ADVOCACY DIRECTOR, 
                       HUMAN RIGHTS WATCH

    Ms. Richardson. Madam Chairwoman, in an effort to cover all 
three in 5 minutes, I am going to cut to the chase. We are 
compelled to start with North Korea where, despite lip service 
to the human rights provisions in the constitution, the regime 
remains one of the most abusive in the world. This is a 
government that happily continues to pursue collective 
punishment, public executions and a range of forms of arbitrary 
detention. It also harshly people who leave the country without 
state permission.
    The economic mismanagement and Kim Jong Il's proclaimed 
``military first'' policy are also threatening the lives of 
countless North Koreans. This year the World Food Program has 
reported that North Korea could face its worst food crisis 
since the famine of the 1990s, which claimed over 1 million 
lives.
    Given these circumstances, we do urge that the U.S. respond 
positively and immediately to the humanitarian imperative of 
resuming food aid to North Korea, though donors should insist 
on the kinds of steps that Ambassador King articulated about 
monitoring of the delivery and the delivery of food assistance.
    We believe that some of the startling increases in access 
granted by the North Korean Government to the U.S., the U.N. 
and others is perhaps evidence of the regime's growing 
desperation, and that that should be acted on, and that the 
State Department should move to try to make those changes 
permanent.
    We also urge that the U.S. continue to strongly press the 
Chinese Government to stop practicing refoulement, essentially 
sending people back to a well founded fear of persecution by 
sending them back to North Korea where they face severe 
penalties.
    We also encourage the U.S. to continue to lean on the North 
Koreans to let in the relevant U.N. special rapporteurs who can 
report on human rights, on food aid, and on issues related to 
arbitrary detention and ex judicial executions.
    Burma: I am going to spend an extra minute on Burma, 
because I am a little bit taken aback by some of the State 
Department's testimony this morning.
    Some people have looked at the political changes in Burma, 
the election of a President and a Parliament, and concluded 
that this is a new government. That is a fiction. These are the 
same people behaving in the same ways as were running the 
country 6 months ago.
    We supported the Obama administration's decision to try to 
engage the Burmese military 2 years ago, and we welcomed along 
the way domination of the United States Special Representative 
and Policy Coordinator for Burma, but the question remains, 
what policy is there to be coordinated?
    I think we also need to spend a few minutes talking about 
whether the regime's lack of concessions is in part a lack, in 
part a function of the State Department not necessarily--or the 
administration not necessarily pulling all the levers that are 
available to it. I want to talk about two in particular that 
were not mentioned this morning, and that are worth serious 
consideration.
    The administration has said that it is committed to 
maintaining sanctions against the Burmese Government, but in 
reality it has refused to implement the full complement of 
sanctions envisioned by the JADE Act, including the one option 
most likely to be effective, which is pursuing the banks and 
other financial institutions that are holding funds on behalf 
of the Burmese junta.
    Moreover, 6 months ago Secretary Clinton said that the 
administration was committed to--and I quote--``seek 
accountability for the human rights violations that have 
occurred in Burma by working to establish an international 
commission of inquiry.'' But in reality, the administration has 
made little or no effort to make the commission a reality.
    Now this morning we heard Mr. Yun talk about how the U.S. 
can't do things alone. Well, you know what, 15 other 
governments have agreed to support the idea of a commission of 
inquiry, and I keep asking what the U.S. has actually done to 
make this a reality. Instead, I get told that it is hard.
    You know, what is really hard? it is really hard being a 
Burmese political prisoner right now, and if the U.S. doesn't 
pull these levers and pursue all of the means that are 
available to it in these circumstances, it is in effect saying 
to people like those political prisoners, monks and students 
and other people who have come out on the street, you know 
what, guys, you are going to have to do it again; you are going 
to have to offer yourself up as human sacrifices to try to get 
the world's attention again. That is unacceptable.
    In Tibet, since March 2008 when protests blew up across the 
plateau, the human rights situation, in our view, has worsened 
considerably as a result of several new developments, including 
a significant increase in the number of troops garrisoned on 
the plateau, and intensified propaganda campaigns and hard line 
discourse from the government that blames the Dalai Lama and 
the Tibetan exile movement for any unrest.
    Tibetans now endure even sharper restrictions on their 
movements within Tibetan areas and increased surveillance in 
other parts of China, and are forced to endure more 
restrictions on monasteries and religious activities.
    Prior to 2008, when we all know that there were severe and 
systematic human rights abuses, the Chinese Government tried to 
conceal its security apparatus and political control to project 
the impression of Tibetan acquiescence to government policies. 
This is no longer the case. We are now talking about blatant 
militarized repression.
    In addition to urging that Vice President Biden raise cases 
of Tibetan political prisoners, we believe that the Chinese 
leadership and the U.S. leadership should meet with the Dalai 
Lama and the newly elected head of the government in exile.
    I am happy to provide some other thoughts about China 
strategy in particular, and happy to answer any of your 
questions.
    [The prepared statement of Ms. Richardson follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Ros-Lehtinen. Thank you very much.
    Thank you very much. Thank you for excellent testimony.
    Mr. Gere, I will start with you.
    There will be likely a struggle over the next Dalai Lama 
when the current one, who is 75, passes away. Beijing 
authorities will seek to interfere with the selection of 
Tibet's new next spiritual leader, and they would hope to put a 
puppet probably that they can control.
    We can't imagine in a similar circumstance a European 
secular power intriguing in the Vatican to manipulate the 
selection of the heir to the See of St. Peter. So as the 
selection of the Dalai Lama, according to the reincarnation 
system of Tibetan Buddhism, is clearly an issue of religious 
freedom, what can or should the U.S. Government do to persuade 
Beijing to keep its hands off a purely religious matter?
    Mr. Gere. The total absurdity of the Chinese Government 
saying that they will be naming the next Dalai Lama, when they 
are an atheistic organization, is pretty absurd. This is 
totally for the Tibetans themselves and, frankly, with this 
Dalai Lama, who is much bigger than Tibet, belonging to the 
world, it is certainly not up to the Chinese to make this 
decision.
    This Dalai Lama has said also that he will not be reborn in 
a Chinese occupied area. So, clearly, he will be born in 
freedom, whether it is in India, but clearly outside of Tibet 
as long as it remains under Chinese control and the kind of 
repression that there is now.
    In terms of the U.S., just be very clear in saying, no, 
this is up to the Tibetan people and the religious 
organizations within the Tibetan culture to make that decision.
    Chairman Ros-Lehtinen. Thank you very much. Mr. Downs, on 
North Korea, the North Korean Human Rights Act provides for 
broadcasting inside of North Korea, including by North Korean 
defectors.
    Last month, a defector run radio station, based on sources 
that it had cultivated inside North Korea, carried a report on 
the systematic murder of special needs children. The reported 
rationale was to keep the North Korean capital, Pyongyang, 
devoid of disabled people. If true, this would represent a 
horrific human rights violation of epic proportions.
    Can you comment or can Ms. Richardson on the likely 
credibility of this report, and can you comment on the overall 
effectiveness of these broadcasts into North Korea?
    Mr. Downs. Thank you, Madam Chairman. I saw that report, 
and personally I thought that it had a high level of 
credibility, primarily because it actually identified 
individuals involved in the process and identified the source 
of the information to a deep degree.
    It is not inconsistent with things that we have known that 
the North Korean Government has done in the past, and it makes 
sense from their perspective. So I take it as a serious 
concern. I know that Sophie will want to have some time to 
comment.
    Chairman Ros-Lehtinen. Yes, and also on the effectiveness 
of the transmissions. Ms. Richardson.
    Ms. Richardson. I think the broadcasting is incredibly 
important, and here I will insert a plea about VOA's Chinese 
language services. This is not the time to cut them, rather to 
double them.
    I think in North Korea, too, these services are incredibly 
important for bolstering people's sense of a connection with 
the outside world, but also transmitting information into and 
out of countries that don't have free presses. These services 
are crucial, in our view and, to some extent, in our own 
research.
    On the issue about that report in particular, I haven't 
seen it, but I agree entirely with Mr. Downs that those kinds 
of practices are consistent with behaviors that we have 
reported on in the past.
    Mr. Downs. Let me add one thing, if I could, specific to 
your question.
    Chairman Ros-Lehtinen. Yes, sir.
    Mr. Downs. Defectors are particularly adept at getting 
information out of North Korea and sending information back 
into North Korea. They know what is on the minds of the people 
in North Korea. They know how to get the information, and they 
have been extremely effective.
    I can remember 10 years ago everyone questioned whether 
defectors were a good and legitimate source for information 
from North Korea. That skepticism has diminished over the 
years. People no longer doubt that they are obtaining the best 
information. After looking at this issue for 20 years, I can 
tell you that there has been a tremendous track record on the 
part of defectors for saying accurate things that we were later 
able to prove actually happened. Thank you.
    Chairman Ros-Lehtinen. Thank you. Then on Burma, I won't 
have time for your answer, but I wanted to bring up again that 
the administration has taken over 2 years to name a Special 
Representative for Policy and Coordination for Burma, and it is 
legislatively mandated in the Block Burmese JADE Act.
    I think that this prolonged delay in naming this special 
envoy has impeded our U.S. focus on the deteriorating human 
rights condition inside Burma and on the necessity to enforce 
the sanctions mandated in the Act. So we certainly hope that we 
see some movement there. I thank the witnesses again for their 
excellent testimony. Pleased to yield to Mr. Berman for his 5 
minutes.
    Mr. Berman. Thank you very much, Madam Chairman. I guess I 
would like to ask, on Tibet, Mr. Gere and perhaps Ms. 
Richardson.
    We have had a vivid demonstration from your testimony and 
what the members of the committee have said regarding what is 
going on with the Chinese in Tibet. The Chinese like to say, 
oh, the Dalai Lama just wants an independent country; he wants 
to secede. He has publicly said that is not his goal, but still 
no direct meeting with the Dalai Lama. Now he has turned over 
governmental responsibilities to the democratic elected 
leadership of the Tibetan Government in exile in India, and 
Lobsang Sangay has been elected to head the Tibetan exiled 
government.
    Do either of you see this as an opportunity where the 
Chinese might consider directly negotiating with him? Is there 
some strategy change here that offers any hope of working or is 
this just an implacable opposition? They will always have--they 
always invent some reason, and we shouldn't expect anything to 
come from this transfer of power?
    Mr. Gere. I don't think we can expect anything, but I am an 
optimist. I think things can change radically, as we have seen 
in our lifetimes. Out of nowhere, things have changed.
    Mr. Berman. In the last couple of months.
    Mr. Gere. And I think this can happen in China, because the 
elements are all there for this kind of radical change. When 
people have been repressed this long--and I am talking about in 
China, not just Tibet or Mongolia or with the Uyghurs or 
anywhere. Change can come extremely quickly.
    Now in terms of these negotiations, which between the 
Tibetans and the Chinese which were restarted in 2002, 
fruitless--to this point, there is nothing that has been 
gained. The key negotiator, Lodi Gyari, tries to put a good 
face on this, and he says, well, we are getting to know each 
other. But beyond that, and maybe a more civil meeting that 
they have every year or 2, nothing really has come out of the 
dialogue.
    Still, from the Chinese side, it is the insistence that 
they only want to talk about the fate of the Dalai Lama, where 
he will reside, what his circumstances might be. They do not 
want to enter into what the real negotiation is from the 
Tibetan side, which is the fate of 6 million Tibetans. Now 
until they decide to do that, of course, there will be no 
fruitful negotiations.
    Now the other question that you had about Lobsang Sangay, 
very interesting case, and I wrote about it a little bit in my 
paper. This is a boy who was born in an exiled community, in a 
refugee community and was given the possibility of becoming 
much more than that.
    Long story short, he took advantage of a Fullbright 
scholarship and was educated here in the U.S., became a 
professor at Harvard, and is now the first freely elected, 
fully empowered prime minister of Tibet, in exile, but I think 
the evolution of this kind of a systematic movement toward true 
democracy in the exiled Tibetan community is extremely 
important.
    The willingness of the Dalai Lama, who by all accounts--the 
psychic energy, the physical energy, everything about him--is 
the leader of the Tibetan people, by his own powers stepped 
back, because it was good for the people to engage the ideas of 
democracy.
    Now if the Tibetans can do that outside of Tibet with all 
of the negative circumstances of being a refugee community, 
certainly that signals to inside of Tibet that that is also 
possible, and also by extension in China that it is possible.
    Mr. Berman. You are an optimist, and that is good. There is 
no reason to be here if you were not.
    Mr. Gere. I will not have it beaten out of me by anyone.
    Mr. Berman. I have 52 seconds left here. Mr. Din, Ms. 
Richardson, let's assume the administration--and I do believe 
truly that the only way they are going to get real change in 
Burma is to get the neighbors of Burma to decide that this is a 
goal that they will take up with the Untied States. What is 
your evaluation of that strategy, and that, therefore, that is 
why they haven't imposed the final sanction, or that is why 
they haven't quickly enough appointed somebody? This is their 
goal. Is that a goal that is achievable, and would it make a 
difference? Now 1 second. You have until the chair----
    Mr. Din. Mr. Berman, we are not asking for saving our 
country from the dictatorship. U.S. sanctions alone will not 
make my country free. U.S. engagement also will not make my 
country free. The people of Burma are the ones who will save 
their country from the dictatorship.
    What we are asking is strengthen us better and better, and 
we can get stronger and stronger. The stronger we are, the 
weaker the region, the chance--the better we have chance to win 
the victory. So with the United States, rising of the history 
and make themselves whatever effort they can to supplement our 
movement in terms of financially, physically and morally, as 
well as make the region weaker and weaker by imposing economics 
and other sanctions on the region as strong as possible. That 
is all we are asking.
    Mr. Berman. Could Ms. Richardson just get a word in on this 
subject as well?
    Chairman Ros-Lehtinen. Thank you. Could we leave that for 
maybe another--maybe Mr. Connolly will help you out.
    Mr. Berman. No, that is all right. I could pursue directly.
    Chairman Ros-Lehtinen. Thank you so much. Mr. Smith is 
recognized for 5 minutes.
    Mr. Smith. Thank you, Madam Chair. Let me thank all four of 
our witnesses for your very concrete and very serious 
recommendations. I think you do each of the countries in 
question a great service by having very serious 
recommendations.
    I mentioned earlier in some of my comments to Mr. Baer a 
concern that I have about a lack of personal accountability on 
the part of dictators and their henchmen and people who are 
just following orders who do heinous things to other people.
    Tomorrow in remembrance of the Tiananmen Square massacre, I 
will be introducing the China Democracy Promotion Act, which 
will empower the President to deny visas to those individuals 
who have committed atrocities, and the President would have 
that ability to say you are not coming to the United States.
    It mirrors what we did with the Belarus Democracy Act, and 
I was the author of that, and it does work when we tell the 
dictatorships we are not kidding, you are not coming here. I 
hope that maybe we could get a full head of steam for that 
piece of legislation.
    I mentioned earlier, Mr. Gere, and you might want to touch 
on it, Hu Jintao's personal animosity toward Tibet cannot be 
overlooked. I would say, if it is not hate, I don't know what 
it is, and I find it very discouraging that we fail to realize 
people's personal animosities who then get into these positions 
of power, and they do terrible things. So you might want to 
speak to that.
    Again, I found all of your testimonies very compelling. Mr. 
Downs, you point out that there is no reason for China to have 
to bear the burden of resettling all North Korean refugees.
    Well, as we all know--and I have actually chaired three 
hearings on this, and I would agree with you--the Chinese 
Government continues to commit the grave crime of refoulement.
    They send people back to certain incarceration, if not 
death, but we also found during those hearings that many of the 
women who make their way across into China are then sold into 
sex trafficking and area abused, sex slavery and are abused 
horrifically, and China, to the best of my knowledge, has never 
been held to account for its gross violations of the refugee 
convention at the U.N. Again, the U.N. doesn't even do a slap 
on the wrist vis a vis China for any of its crimes in this 
case.
    So if you could speak to that, and again--and I hope to get 
Mr. Baer to answer the question in the administration. It is 
time to hold people like Hu and others personally accountable 
either in a criminal venue like The Hague, certainly in other 
venues as well like the Refugee Convention.
    Mr. Gere. You raised a lot of very good points here, 
Congressman. We had a long talk about this earlier this 
morning, actually, and the reality of dealing with the 
Chinese--I think our President has found new footing on how to 
deal with the Chinese. I would like to see him go further, as I 
think most of the Congresspersons here would. When he made the 
decision not to see the Dalai Lama in September 2009, I believe 
it was, he said, no, I want to go to China first and start 
fresh with the relationship with them.
    On a certain level, that made a great deal of sense, and he 
talked to the Tibetan community about that before that decision 
as made public. It was the wrong decision, because the reality 
is the Chinese only deal with pressure, seriousness, firmness, 
and every time we are wishy-washy with them, they take 
advantage of it, and this is not true only of the U.S. but of 
every other country they have dealings.
    A stick and a carrot is very important in dealing with the 
Chinese. Firmness is deeply important. They do understand that, 
and anything short of that is viewed as weakness, and they will 
take advantage of it, absolutely.
    Now as to Hu Jintao, when it was clear that he was going to 
take over leadership, I asked some of our people in some of our 
agencies--let me put it that way--about him, and they had a 
psychological report on him.
    They said, look, this is a guy who came out of the Party. 
From a young man, he was in the Party, and he has group-think, 
Party-think. This is not a kind of alpha personality who can 
bring change. He is not a Gorbachev. He is not someone who can 
think out of the box. He is always going to be within the box 
of the Communist party, and for his tenure there, he has proven 
himself to be exactly that.
    He wasn't a businessman. Jiang Zemin actually was able to 
make some large moves laterally. The army at a certain point 
pulled a choke chain on him and stopped the entire process of 
that, but I think any of these guys that come out of the party 
system, there is no way that they will be the free thinkers 
that we want them to be to make radical change or even, really, 
systematic change.
    Hu Jintao, I have no doubt, has animus against the 
Tibetans. He showed it, as you said, in 1989, and he continues 
to show it now. There were many opportunities and there 
continue to be opportunities in Tibet to make things right.
    There is a soft way in Tibet for the Chinese to get 
everything they want, and for the Tibetans to have everything 
they want, and coming from strength, as Hu Jintao has come 
from, or apparently, he has been willing or unable to see that. 
It is a great misfortune for China as well as Tibet.
    One other thing I would like to bring up in terms of this 
stick and carrot, the visa thing is real. They do listen to 
these kind of things. We want a consulate in Lhasa. That is 
important to us. As it is now, the closest we have is in 
Chengdu, and Chengdu is actually much further away from Lhasa 
than Kathmandu or Dhaka.
    So we want this, and we have had it on the table since the 
last time I actually spoke to you all, which was in 2007, I 
think, and I think it actually was talked about as early as 
2002 very seriously. We want that. Now that is at the top of 
our list with China.
    They want consulates in Boston, Atlanta, elsewhere. This is 
a quid pro quo. If you want Boston, we want Lhasa, and to be 
very, very clear about it----
    Chairman Ros-Lehtinen. Thank you very much. Thank you. 
Thank you, Mr. Smith. Mr. Connolly.
    Mr. Connolly. Thank you, Madam Chairman. Let me pick up 
where Mr. Gere was just leaving off. I am going to ask a 
devil's advocate question. That is, what real leverage do we 
have on the Chinese, frankly, with respect to Tibet?
    They have been resettling Tibet with Han for a long time. 
You talked about 6 million Tibetans. There are 1.3 billion Han. 
Our relationship, if anything, has shifted in a way where we 
are much more susceptible to their leverage than they are to 
ours, from an economic point of view. The largest trade deficit 
we have in the world is no longer Japan. It is China.
    They have invested in U.S. debt to the point where, 
frankly, they are our largest debtor country--or creditor 
country. So when we look at, well, what points of leverage, I 
know you cited visas, but given the enormity of Chinese 
presence in Tibet, given their intransigence with respect to 
any discussion about Tibetan autonomy, the return of the Dalai 
Lama under reasonable circumstances, and so forth, how 
realistic can it be that the United States could meaningfully 
influence the Chinese to a much more enlightened and reformed 
view about Tibetan freedom?
    Mr. Gere. Everything you say is absolutely true, but the 
situation in Tibet can radically change quickly. The investment 
in Tibet is fairly superficial from the Chinese side. They have 
already taken the natural resources. The hundreds of billions 
of dollars in natural resources, including wood, timber, 
etcetera, etcetera, that is all gone.
    They have a large contingency of military there at this 
point, and that costs them a lot of money. But we are not 
invading China. We are not going to stop having economic 
relations with China, but there are areas that they are very 
sensitive to.
    Human rights, brought up consistently, is annoying to them. 
It is like having a thing in your tooth of a lion, a lion with 
a little stick stuck in his tooth. It is annoying to the point 
he would do anything to get rid of it, and that is what we have 
been doing from the Tibetan side now for 40, 50 years.
    There is a reason why they still think why do people care 
about Tibet; why do they keep bringing up Tibet? It annoys 
them, and it is right, and it is true, and it is coming from a 
powerful place from us.
    Now I agree so totally with you who have spoken ill of the 
President for not receiving the Dalai Lama properly. That is 
annoying to them, to see the President of the United States 
publicly engage in the most appropriate way with the Dalai 
Lama. That is a big deal to them.
    The fact that the President of the United States would talk 
about human rights publicly in front of them saying this is 
what we stand for, and we are really not happy with what you 
are doing there--that is incredibly annoying to them. Now we 
have to do this consistently.
    Every time a Congressman goes near the Chinese, they have a 
list of Chinese prisoners, every single time. Every single time 
Tibet is brought up, every single time the Dalai Lama is 
brought up, every single time the negotiations between the 
exile government and the Chinese is brought up, in every 
situation, whether it is economic, political, etcetera, 
educational, artistic exchanges, every single one, these key 
points that we care about are brought up, and believe me, they 
hear it. They are so annoyed by this.
    Mr. Connolly. I really take your point. We need to be 
speaking consistently and unwaveringly, because weakness is not 
respected on the other side.
    Mr. Gere. No. Taken advantage of.
    Mr. Connolly. That is right.
    Mr. Gere. Immediately taken advantage of.
    Mr. Connolly. Thank you. Ms. Richardson, real quickly, I 
heard your disappointment in the administration testimony in 
the first panel, and I shared it, and I wanted to give you an 
opportunity to expand a little bit on Mr. Yun's answer to my 
question about how is it going with pragmatic engagement in 
Burma.
    Ms. Richardson. Now well, is the short answer. The 
administration has, obviously, sent a number of envoys to 
Burma, tried to engage in conversations, obviously reached out 
to Aung San Suu Kyi and others, but there haven't been any 
confessions.
    I think that really is a function of the regime not feeling 
any real pressure or obligation to make those kinds of 
confessions, and why we need to wait any longer or wait until 
the EU, for example, decides that it thinks the new government 
is problematic or not all that new or ASEAN allies have a 
sudden change of heart and decide to take a tougher position 
against one of their own is a little bit of a mystery to me.
    We know what this government is. We know how it will act. 
The U.S. has leverage available to it, and if it has exhausted 
other options and hasn't seen the desired change----
    Chairman Ros-Lehtinen. Thank you, Ms. Richardson. Thank 
you, Mr. Connolly. Mr. Rohrabacher is recognized for 5 minutes.
    Mr. Rohrabacher. Thank you very much, Madam Chairman and, 
Mr. Smith, I hope you will put my name on as an original co-
sponsor to your China Democracy Promotion Act, and that sounds 
exactly right. You are actually doing something rather than 
just annoying them.
    Mr. Gere, I really appreciate you over the years. Very few 
people in your business have had meaningful commitments to 
human rights, and you have. What was the name of your movie 
where you were the businessman in China?
    Mr. Gere. Red Corner.
    Mr. Rohrabacher. Okay, there you go.
    Mr. Gere. A very large seller in mainland China.
    Mr. Rohrabacher. Let me suggest that any of you who have 
not seen that movie should see it, and I thought it was very 
courageous of you to participate in something like that that 
could have had economic repercussions, for yourself.
    I do not believe that annoying dictators and gangsters 
makes a difference. I'm sorry, and the bottom line is that, if 
you have--and I always have--when I go to these countries, I 
carry the list of political prisoners.
    Mr. Gere. God bless you.
    Mr. Rohrabacher. I do this all the time. Frankly, the other 
Americans who are carrying contracts and blueprints for 
technology development and the plan for the latest plant that 
they want to move from the United States to China--that means 
more to them than----
    Mr. Gere. I think, if every single one of them had that 
list, your list--and that was primary before you got into the 
business.
    Mr. Rohrabacher. Well, I will tell you, the businessmen--as 
I say, America's actions speak so loudly that they can't hear 
our words of support for human rights, and that is a sad, sad 
story. I am saying that, because I disagree with you on that 
one point. You are my hero on being committed to human rights 
the way you are, and the points you are making are very 
important for us to listen to.
    The reciprocity demanding for a consulate and Lhasa, for 
example, is an important point to make. We need reciprocity 
rather than annoyance. We need--for example, Beijing has 
permitted two VOA reporters in their country. They have 
hundreds of government reporters from China here.
    Mr. Gere. Good point.
    Mr. Rohrabacher. Let's have some reciprocity. In fact, what 
we are showing them, instead of demanding reciprocity, we are 
closing up VOA. I mean, how insane. What kind of message does 
that send. All the other messages we are going to send, but we 
are going to close up the China section of VOA. Yes, we are 
sending messages, all right, and I agree with you. We should 
never, never try to have violence as our tactic that will bring 
about freedom in China.
    The people of China are our greatest ally in this fight for 
freedom and peace in the world. The Chinese Government is our 
worst adversary and enemy. We need to expand that alliance.
    One note, Ms. Richardson. Where I agree with many of the 
things that you stand for, instead I want to note one thing 
that I disagree with your testimony. That is for us to be 
feeding the people of North Korea is catastrophe for the cause 
of freedom and the cause of peace, and it will not bring a more 
peaceful world.
    If we end up, which we have done for the last 15 years, 
providing fuel and providing food for North Korea, they will 
then use their money to buy weapons and to repress their 
people. There is a track record. It is demonstratable that that 
is what they will do.
    This is what tyrants do. They don't care about their own 
people. So we should not shift the responsibility of feeding 
them and providing them fuel to the Americans or other people. 
We should leave that--I'm sorry. The North Koreans will suffer 
because of their own government, not because we are not giving 
it to them.
    So, Madam Chairman, we have had a lot of good suggestions 
here today, and this has been a great hearing, and I appreciate 
you taking the leadership. I hope this committee--we have had 
these suggestions now, reciprocity for Lhasa and these other 
things that we have heard today. I hope that we follow up on 
that, and I do hope that we do call Americans here to explain 
when they are doing things that actually help the tyrants in 
places like China, but also in Burma and these other countries. 
Thank you very much.
    Chairman Ros-Lehtinen. Thank you very much, Mr. 
Rohrabacher. Mr. Burton, chairman of the Subcommittee on Europe 
and Eurasia, is recognized.
    Mr. Burton. I just learned that we are cutting off the 
funding for VOA to China. I didn't know that, but I will be 
happy to join with you in getting signatures on a letter to try 
to get that money reappropriated for that. I think that is a 
crazy thing. That is the first thing I didn't know.
    The second thing I didn't know is that you could sing. When 
I saw Chicago, I just couldn't believe you were singing. So I 
want you to know that that was very impressive.
    Mr. Gere. I just want you to know I am not going to sing 
right now.
    Mr. Burton. That is fine. That is fine. Incidentally, this 
morning while I was getting ready to come to work, on the 
History channel they had a documentary on Tibet, and I wish you 
could have seen it, because I thought maybe you put them up to 
that, because it went into all the things that you were talking 
about, from the birth of the Dalai Lama all the way up to the 
problems that they are having today. So it was kind of timely.
    First of all, let me talk about North Korea. My colleague 
just said, Dr. Richardson, that we shouldn't be sending food 
there. I concur with him. I would love to make sure that the 
starving people there get food. I think that is important, but 
I remember--and I mentioned before, and you probably heard it 
when I was talking the first time around--that Mengistu got 
millions of dollars in Ethiopia, and he made money off of it 
and used it to repress his people, and it went on and on and 
on.
    I think that a better use of our funds and our resources 
would be to really go after North Korea in every possible way 
to make a change, and I know it is going to be very difficult, 
but giving them food aid for the starving masses, unless we 
could make sure it gets to them--and the monitors you talked 
about--that was talked about with the first panel, I just don't 
have much confidence in them.
    You said the election in Burma was a sham. I think that 
most of us were not really aware of all the ramifications of 
that, but I will try to make sure that we communicate that to 
the rest of our colleagues who aren't here on the Foreign 
Affairs Committee with us today.
    North Korea said that, when we passed the Korean Government 
sanctions legislation, the Korean Human Rights Act, that the 
NGOs will pay for that. Can you elaborate on that real briefly? 
Have they done that? Has there been any repression of the NGOs 
that were there in North Korea?
    Mr. Downs. There were no NGOs in North Korea, and the 
statement actually said NGOs ``operating in some countries.'' I 
have considered that an additional bit of circumstantial 
evidence that suggests that the mysterious disappearance of 
David Sneddon was actually a North Korean abduction. There are 
a number of other circumstances that support the same 
conclusion.
    You can say that they have taken other actions as well 
against NGOs around the world, but in that particular time 
period there was one action that, I think, is attributable to 
North Korea that was responsive to the anger that they felt at 
that time.
    Mr. Burton. I don't know how much pressure this will put on 
these tyrannical governments, but I think your idea of a bill, 
which I will co-sponsor with you, to deny visas to anybody from 
those countries that are involved in human rights violations is 
very good, and I will try to help you get co-sponsors to that.
    Mr. Gere, you said that you hope that China, like other 
countries, will be successful and that there will be positive 
change. We all share your view that that, hopefully, will 
happen, but with the military government that they have and the 
Communist government, I am not too optimistic that that is 
going to happen.
    So I am going to give you one more chance to elaborate on 
how you think we could put pressure on them or Burma or any of 
these other countries, Tibet, and their governments to bring 
about positive change.
    Mr. Gere. This is a very long discussion.
    Mr. Burton. I know, but you are very knowledgeable, and I 
would like to hear what you have to say.
    Mr. Gere. But, I think, philosophically, too. Look, my 
feeling is that nonviolent change, real change, takes a long 
time, but once it is achieved, it is solid. It is real. It has 
longevity.
    There is no way that China is going to change from the 
outside rapidly. They will change from the inside, as we see. 
Communication becomes desperately important. We see what the 
Internet has done.
    We know what the Voice of America has done. I can tell you, 
the people, the Tibetans, nuns and monks, friends of mine who 
have gotten out of Tibet have said that that kept them alive. 
The hope that kept alive in them was extraordinary. For us to 
stop that, for the minimal amount of money, considering budget-
wise what that is, is insane to cut that off.
    Same in China. People get information. They hear other 
ideas. As much as I do agree in this stopping visas, I want 
more people to come to the U.S. I want everyone to come to the 
U.S. Even if it is unbalanced, I want them to come and see how 
other people live, see how we live, see how we think, see the 
mistakes we make, the context of our lives. That has changed 
our planet rapidly, just seeing each other, engaging each 
other.
    I was in China--I think the only time I was allowed in the 
mainland was in 1993, I think it was, and I have seen since 
then many of the Chinese people that I had met at that point 
outside and how quickly they changed in the process of just 
seeing the rest of the world, hearing the rest of the world.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Gere. Engaging the rest of the world. It is huge.
    Chairman Ros-Lehtinen. Thank you so much. Thank you. Our 
last question and answer period will be led by Mr. Bilirakis of 
Florida.
    Mr. Bilirakis. Thank you, Madam Chairman. I want to thank 
the panel for their testimony. I only have one question. It is 
not directly related to Tibet, North Korea or Burma, but it 
characterizes Beijing's influence in their neighborhood.
    Recent media reports--we have been discussing this issue, 
but recent media reports from the Economist, BBC, and the 
Taipei Times have disclosed the Beijing pressures, some of its 
Asian neighbors, to interfere with and even stop some 
independent media in these countries from broadcasting either 
locally or to mainland China.
    Such media include Radio Era Baru in Indonesia, Sound of 
Hope Radio Network in Vietnam, and the New Tang Dynasty TV in 
Taiwan. This is particularly troubling, since two out of the 
three countries are democratic countries.
    I would like to hear from the panel your thoughts on 
China's reach into undermining democracies.
    Ms. Richardson. I will try to give you a succinct answer to 
that. Yes, these cases that have been reported, I think, 
clearly represent the Chinese Government's efforts to shut down 
transmissions by particular kinds of media outlets.
    The ones you just referred to are affiliated with the Falun 
Gong, and we have seen a very concerted effort to make sure 
that those can't broadcast either into the mainland or to 
Chinese speaking communities across Southeast Asia.
    I think it is absolutely true that especially the regions 
and the places we are talking about today, feature regimes 
that, in and of themselves, are deeply committed to brutality, 
and would continue to be so even if China dropped off the map 
tomorrow, but the Chinese Government does provide crucial 
economic support, diplomatic support, and certain kinds of 
other recognition that those regimes really, I think, rely on.
    One of my concerns about the hesitation on Burma of needing 
the neighborhood support--is the U.S. really looking for the 
support of Laos and Vietnam and Cambodia, three governments 
that have terrible track records on human rights, to help 
protect the people of Burma? That doesn't make a whole lot of 
sense. But I think it is very clear to see that the Chinese 
Government will try to influence efforts of activism, either by 
Tibetans or Uyghurs.
    In other parts of Southeast Asia, we have seen a number of 
horrifying cases of people being refoule'ed back to China from 
Southeast Asia, not least 20 Uyghurs who were sent back from 
Cambodia at the end of 2009 and literally not been heard from 
since.
    These are very worrying trends that, I think, deserve a 
certain amount of public scrutiny from the State Department.
    Mr. Din. Those radio services such as Radio Free Asia 
Burmese service, Voice of America, Burmese service, and BBC, 
Burmese service, also the Democratic Voice of Burma, Oslo, 
Norway--they all are very reliable and a treasure for the 
people of Burma, because they only have the true news 
information from these radio outlets, not from the government-
controlled media.
    That is why the regimes have tried to block these radio 
assets. There are many laws in Burma. You can't own a radio or 
television without having permission from the local authority, 
and you can be sentenced, imprisoned for 3 to 5 years for 
listening to the BBC or VOA radio services.
    I think that the regime issued the order, and then the 
order is government stuff, not to listen to these radio 
services. I believe that the regime also received such a so 
restricted a declaration from the Chinese Government to 
suppress all the radio coming from the international media.
    Mr. Downs. If I might very quickly, I think that the 
Chinese support of the North Korean regime is pretty well 
known, but we need to keep in mind its full range--that they 
use their U.N. power quite often to support North Korea 
blocking resolutions, against the sinking of the Cheonan, for 
example, and this goes all the way down to the local level. 
They allow North Korean agents to come in and operate against 
North Korean refugees inside China, remove them, and send them 
to camps, and it is not like this is completely unofficial.
    The Chinese Government itself repatriates North Korean 
refugees, and sends them to their own punishment, persecution, 
and death back in North Korea, in violation of international 
law. I think it is well known. Thank you.
    Chairman Ros-Lehtinen. Thank you so much, Mr. Bilirakis. I 
want to thank our excellent witnesses. Thank you so much. I 
also want to thank the audience. Thanks for being with us, 
because this sends us a good signal that you are interested in 
human rights, and you want to hold those human rights violators 
accountable. We thank you so much. Thank you to the members of 
the press who were with us.
    Mr. Gere, you know I have another special request of you. 
We have somehow found another crop of interns who would 
appreciate a few minutes of your time, whenever you get done 
with the interviews and discussion.
    Mr. Gere. I will give you the time to do that gladly, but I 
want you to commit to have an executive meeting with Lodi Gyari 
and other representatives of the Tibetan movement.
    Chairman Ros-Lehtinen. I will do this. Thank you.
    Mr. Gere. Thank you.
    Chairman Ros-Lehtinen. We will do this.
    Mr. Gere. Love to have you in part of that as well.
    Chairman Ros-Lehtinen. You know these guys will always be 
with you. Thank you so much. Thank you, all of you.
    The committee is adjourned.
    [Whereupon, at 12:50 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Mi
                               nutes deg.
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Co
                               nnolly 
                               statement deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Qu
                               estions--
                               Ros-
                               Lehtinen deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
[Note: Responses to these questions were not received prior to 
printing.]
                               <greek-l>Qu
                               estions--
                               Ros-
                               Lehtinen deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
[Note: Responses to these questions were not received prior to 
printing.]

                                 <all>

</pre></body></html>
